OFFICE OF INSPECTOR GENERAL 



AUDIT OF THE UNITED
STATES AFRICAN
DEVELOPMENT
FOUNDATION'S FINANCIAL
STATEMENTS FOR FISCAL
YEARS 2013 AND 2012
AUDIT REPORT NO. 0-ADF-14-002-C
DECEMBER 16, 2013




WASHINGTON, DC 

Office of Inspector General


MEMORANDUM

TO:                  USADF President and CEO, Shari Berenbach
FROM:                Acting AIG/A, Melinda Dempsey lsi

SUBJECT:             Audit of the U.S. African Development Foundation's Financial Statements for
                     Fiscal Years 2013 and 2012 (Audit Report No. 0-ADF-14-002-C)

With this memorandum, the Office of Inspector General (OIG) transmits the audit report
prepared by the certified public accounting firm of GKA, PC, on the financial statements as of
September 30, 2013 and 2012, of the U.S. African Development Foundation (ADF). DIG
contracted with this independent auditor to audit the financial statements.

The independent auditor expressed an unmodified opinion on ADF's fiscal year 2013 financial
statements and notes. The report states that the financial statements presented fairly, in all
material respects, ADF's financial position, the net cost of operations, the changes in net
position, and budgetary resources for the years ended September 30, 2013 and 2012, in
conformity with accounting principles generally accepted in the United State~ of America.

The report contained no material weaknesses or significant deficiencies in ADF's internal control
over financial reporting and no instances of noncompliance with applicable provisions of laws,
regulations, contracts, and grant agreements.

We reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; generally accepted government auditing standards issued by the
Comptroller General of the United States; and the Office of Management and Budget Bulletin
No. 14-02, "Audit Requirements for Federal Financial Statements".

In connection with our contract, we reviewed the independent auditor's related audit
documentation. Our review was different from an audit conducted in accordance with the
auditing standards discussed above and was not intended to enable us to express, and we do
not express, an opinion on ADF's financial statements. Also, we do not express conclusions on
the effectiveness of ADF's internal control or on ADF's compliance with applicable provisions of
laws, regulations, contracts, and grant agreements.

The independent auditor is responsible for the attached auditor's report dated December 2,
2013, and the conclusions therein. Our review disclosed no instances where the independent
auditor did not comply, in all material respects, with the auditing standards discussed above.



U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
                                                2


The Office of Inspector General appreciates the cooperation and courtesies extended to our
staff and the staff of GKA, P.C., during the audit. If you have any questions concerning this
report, please contact Rohit Chowbay at (202)712-1317.
    ~
     gKa,p.c.
,      ~   Certified Public Accountants
           & Constdtants                                                         lOts 18'" Street, NW
                                                                                        Suite 200
                                                                                Wasbinglon, DC 20036
                                                                                  Tel: 202-857-1777
                                                                                   Pax: 202-857-1778
                                                                                  ...........gkacpa.rom




    United States Mrican Development Foundation 

    PERFORMANCE AND ACCOUNTABILITY REPORT 


                              Fiscal Year 2013 





                                     Member ofthe Americal1 Il1stitute of Certified Public.Accountants
TillS PAGE INTENTIONALLY LEFT BLANK
                                                     TABLE OF CONTENTS


Section I : Overview

    Message from the President ................................................................................................ . 1 

    Management's Discussion and Analysis ............................................................................. 2 

    Message from the CFO ................................................................................ ...................... 25 


Section II: Independent Auditor's Reports

    Independent Auditor's Report on Financial Statements ....................................................26 

    Independent Auditor's Report on Internal Control over Financial Reporting ...................29 

    Independent Auditor's Report on Compliance with Applicable Provisions of Laws, 

       Regulations, Contracts, and Grant Agreements ...........................................................31 


Section ill: Financial Statements and Notes

    Financial Statements: 

       Balance Sheets .................................................................................... ... ...................... 33 

       Statements of Net Cost. .................................................................................. .............. 34 

       Statements of Changes in Net Position .................................................. ........ ............ ..35 

       Statements of Budgetary Resources ................................ ........................ ..... ................ 36 

       Statements of Custodial Activity ............................... _................................ ................ 37 

       Notes to Financial Statements ..................................................................................... .38 


Section IV: Other Accompanying Information .................................................................. .51 

TIDS PAGE INTENTIONALLY LEFT BLANK 

SECTION I 




OVERVIEW
Tms PAGE INfENTIONALLY LEFI BLANK
December 2, 2013
                            MESSAGE FROM THE PRESIDENT


I am pleased to submit the FY 2013 Performance and AccOlmtability Report for the United
States African Development Foundation (USADF). USADF is committed to achieving
significant program impact, cost-effective operations, accurate and timely fmancial reporting,
and full compliance with all applicable laws and regulations.

USADF makes a significant contribution to both US national security and foreign assistance
objectives and is the only US Governmental agency exclusively dedicated to supporting
development in Africa. USADF grants support sustainable solutions to Africa's challenges ­
funding economic development for community-based enterprises in hard to reach rural areas
across Africa. This funding results in increased food security and economic growth for more
than 1.5 million people across Africa, establishing the basis for shared prosperity.

USADF is pleased to be a part of other "whole-of-government" initiatives in Afiica, including,
Feed the Future, Power Afiica, and the President's Youth Africa's Leadership Initiative. USADF
program priorities help ensure these programs reach out to those groups and communities that
can be missed by the larger bilateral government to government efforts.

USADF's 'African Lead - Afiican Managed' model utilizes local host country nationals to
support in-country programming. Not only does this 'country-led approach' empower local
African development practitioners, but it lowers both overhead and program costs, maximizing
the amount of appropriated dollars dedicated to achieving program goals.

Our vision is to help build sustainable enterprises across Africa that would end poverty for
millions of people. Our success is measured in lives improved, new economic opportunities
created, and goodwill established. Our mission is as applicable today, if not more so, than when
USADF was founded in 1980. We look forward to continued cooperation with Congress, U.S.
Government agencies, and friends and experts throughout the African development community.

Signed:


Shari Berenbach
President and CEO



                                               1
                            MANAGEMENT'S DISCUSSION AND ANALYSIS

United States African Development Foundation Mission and Organizational Structure

A Successful Model for U.S. Foreign Assistance
USADF is the only U.S. foreign assistance effort dedicated exclusively to development activities in
Africa and is an important institution to fwther US strategic goals. During this period, USADF has
worked in more than 32 countries and has invested more than $245 million in African initiated and
led development projects. USADF projects are designed to improve economic and social conditions
for marginalized communities in conflict and post conflict regions. As such USADF grants are
tangible expressions of the United States' goodwill towards Africa and directly support US sll:ategic
interests in the region.

USADF programs bring the whole of government programs such as Feed the Future and AGOA to
life at the community and grassroots level. USADF grants help smallholder farmers groups improve
food security through increased production levels, better marketing, and greater involvement in
regional and international export markets. USADF's programs are fully consistent with the June
2012 President's US. Strategy Toward Sub-Saharan Africa. USADF is the only U.S. Agency
exclusively dedicated to foreign assistance in Africa, as such it is uniquely positioned to provide
frontline support for three of the four strategy pillars 1 (i.e. 2, 3, and 4).

USADF has pioneered a counny-led strategy for development. USADF's unique development model
uses only local technical services providers for grant design and implementation support work. This
helps build sustainable local development expertise in each Africa country and fosters long-term
sustainable development. After the local design work is complete, grant funding is used to carry out
project plans and acquire other project inputs to achieve outcomes. The intent of most grants is to
build up profitable organizations that create jobs and generate better incomes for their members. The
benefits do not end with the grant. In FY 2012, approximately 80% of USADF funded projects
completed in the past two years were continuing to operate and generate benefits for their members.

USADF achieves efficiencies in the development process by providing grants directly to local
producer groups, rather than transferring funds and administration to third parties or to African
governments. This approach is greatly appreciated by African governments. Some 16 African
countries have believed so strongly in the USADF model that they have invested over $25 million of
their own scarce resources directly into USADF programs since 2004. These African governments
recognize that USADF grants are achieving sustainable results for their people. The donated African
funds are used directly in USADF's grant programs, and not for administrative expenses.

Purpose              Fostering hope, growth and goodwill in Africa.

Vision              To end the poverty of millions ofAfricans by investing in their solutions.

Mission             To ensure economic growth and prosperity are shared broadly among a diverse
                    community of marginalized populations across Africa



I 1 Strengthen Democralic Institutions; IT. Spur Economic Growth, Tmde. and InVmmeDt; m. Advance Peace and Security; IV. Promote
Opportunity and Development



                                                                   2
Background

USADF is an independent Federal agency established to support African-designed and African­
<hiven solutions that address grassroots economic and social problems. The Foundation is a public
corporation with a seven member Board of Directors who are nominated by the President of the
United States and are confirmed by the U.S. Senate. Currently six of the seven Board positions are
filled. Board members serve staggered fixed terms of six years. The Board of Directors selects and
names the President and CEO ofUSADF. Members of the current Board of Directors may be found
at www.U§adfgoy. On December 17, 2012 the Board appointed Shari Berenbach as the new USADF
President and CEO, succeeding Lloyd O. Pierson.
USADF is the only U.S. Agency exclusively dedicated to foreign assistance in Afiica. USADF
provides grants (maximum $250,000) to African entrepreneurs, producers associations and local
organizations - offering a direct approach to development assistance. This complements the work of
other larger US Agencies and offers a valuable development assistance tool within the broader
foreign assistance framework. The majority of the annual budget is allocated for project grants and
cooperative agreements for African enteIprises and organizations to increase their production and
marketing capabilities that result in higher incomes, more stable jobs, and improved livelihoods.
The typical USADF grant allocates resources to local groups to improve management capabilities,
acquire better production equipment, set up revolving credit funds to help farmers gain inputs needed
to improve production capabilities, develop and expand marketing channels, and in some cases,
develop shared community reSOlU'ces (e.g. water wells). Cooperative Agreement Grants are used to
fund local technical service providers. These grants vary in size and scope according to need and
specific country and regional program objectives.

Working together, the local technical service providers and USADF grant funds catalyze
participating groups to achieve more reliable business results and on-going revenue streams. The end
result is a sustainable solution that generates revenues reflows and economic impacts, that often
exceed three-fold the oIiginal grant value. This direct support demonstrates the effectiveness of a
Country-led development strategy.

USADF Programs Support National Security and Foreign Assistance Priorities

The Sahel and the Horn ofAfrica
Recent discussions with the National Counterterrorism Center and the State Department's Conflict
                                                        and Stabilization Office underscored the
                                                        solid alignment between USADF
                                                        programs and critical national seclUity
                                                        strategies and objectives. The USADF
                                                        "Sahel Initiative" funds economic
                                                        development in conflict and post-conflict
                                                        areas across West Amca to address root
                                                        causes associated with destabilization.
                                                        Due to its size and structure, USADF can
                                                        uniquely provide a rapid development
                                                        response to prioIity areas,
                                                           Figure 1 - Active projects in the Sahel are
                                                           benefiting 86,000 people




                                                 3

USADF programs provide the United States with a "soft" diplomacy tool in these regions by
focusing on community level economic development and food security projects. Projects typically
include water and inigation, small-scale fanning initiatives, and improved livestock care and
management. In FY 2014, USADF will invest another $3.2M in Sahel Initiative activities in
agriculture, livestock management, and water/anti-deseltification sectors, across Burkina Faso, Mali,
Mauritania, Niger, and Senegal.

In 2013, USADF programs in the Hom of Africa (Somalia) have provided jobs skills training and job
placement for over 1400 youth. More than 85% ofparticipants have been placed into jobs or assisted
them to start up small businesses. This program helps to create productive and long term
employment opportunities for youth who are particularly vulnerable to destabilizing and extremist
activities in this troubled region of Africa.

United States Development Priorities in Africa

In keeping with the United States' foreign assistance strategy objectives, USADF programs focus on
poverty reduction, improved food security, increased opportunities for women and youth, and
sustainable, resilient economic development. The brief descriptions below highlight four areas
where USADF programs create value and provide results at the local community and farmer level.

       Food Secmity

       Over 80 percent of all USADF's programming is focused on agricultural development and
       food security. USADF operates in ten of the twelve Feed the Future priority countries in
       Africa. USADF grants puts working capital into the hands of hard working smallholder
       farmers to develop lasting food security solutions in geographic areas of greatest need. In FY
       2013, these new food security grants helped to generate more than $30 million of new
       economic activities that directly benefited more 60,000 farmers. USADF projects are often
       highlighted in Feed the Future publications because they demonstrate program results at the
       community level.

       The majOlity of USADF grants fimd improved agricultural productivity by providing access
       to better inputs such as seeds, animal feed, fertilizer, machinery, storage facilities, and
       inigation systems. These grants also provide access to improved fanning knowledge,
       training in financial and resource management, support for improved transportation systelDS,
       enhanced product storage facilities, better approaches for distribution and marketing systems,
       and improved access to commercial markets and market information. These activities and
       investments result in people having better access to reliable food sources and a greater ability
       to purchase food through higher incomes and sustainable jobs.

       AGOA (Trade & Investment)

       USADF programs provide a pathway out of povelty by linking commlmity producer groups
       and organizations to trade opportunities. For the past several years, USADF projects have
       been a feantred part of AGOA success stOlies. In FY 2013, and FY 2014, USADF leverage
       its collective experience to help eDSltre that AGOA's benefits extend beyond small and
       medium sized enterprises to smallholder producer associations. This important link helps
       close the benefit gap between lUral communities and larger, more prosperous major
       population centers. As AGOA continues to create better access to global markets, USADF


                                                  4

        programs will support small farmer groups with resources to develop business strategies and
        capabilities to actively participate in the broader trade opportunities.

        YALI (Youth)

       In FY 2013, USADF began initial planning to support the White House's "Young Afiican
       Leaders Initiative" (YALI) by establishing the USADF-YALI Entrepreneurship Grants
       Program. The first awards of the Entrepreneurship Grant are expected to begin in FY 2014.
       YALI seeks to empower the next generation of Afiican leadership to advance peace, spur
       economic growth. and promote opportunity. USADF will competitively award grants to
       young Afiicans to pursue their business or social entrepreneurship ventures in their home
       countries that aim to produce economic growth and development. USADF will support the
       young leaders with both seed capital and with technical assistance. The business know-how
       support will be integrated with our implementing pmtners and a network of other YALI
       participants and Afiican entrepreneurs. This special initiative also creates an opportunity for
       USADF to develop additional private funding sources.

       POWER AFRICA

       In FY 2013, USADF piloted five small Power Afiica planning grants in Malawi. In FY 2014,
       USADF's in partnership with GE Afiica will launch an innovative Off-Gtid energy challenge
       to support new business models for sustainable energy in rural areas. Power Afiica, the
       Administration's new initiative, will drive growth by increasing access to reliable, affordable,
       and sustainable power and helping to ensure responsible, transparent and effective
       management of energy resources. USADF will be awarding grants to Afiicans developing
       cost effective, sustainable ways to bring power to remote underserved communities in Afiica.
       Through a challenge grants program, USADF is financing off-gtid solutions, renewable
       energy plans, and other innovations to address the energy gap among rural and marginalized
       communities in Afiica. This special program initiative also creates an opportunity for
       USADF to develop additional private funding sources.

Leveraged Fllnding

Sixteen Afiican countries have invested over $26 million of their own scarce resources directly into
local USADF programs. These governments recognize that USADF grant programs are achieving
sustainable results for their people. In FY 2013, USADF applied $1.8 million of matching donated
funds for new grants in fom countries including Benin, Malawi and Uganda. Additional efforts are
Imderway to establish matching grant programs with three more countries.

Under new leadership, USADF will accelerate efforts to raise external ftmds, particularly from U.S.
corporate and philanthropic sources. Special program initiatives such as YALI and Power Afiica
create an opportunity for USADF to cultivate private funding sources. In nearly all cases, external
fundraising requires USADF to match resources. As such, it is absolutely clitical that USADF
maintains a stable funding base from the U.S. Congress. The return on this Federal commitment
creates a three way benefit for both grant recipients in Afiica and the U.S. public. Through USADF
one dollar in USG funds may be Inatched by a dollar of African host government funds and a dollar
of private donor funds. This leveraged model generates more grants for Afiicans and better utilizes
the base operating costs needed to meet Federal accountability, security, and repOl1ing procedures.



                                                  5

     ResuUs Focused
•

     With a modest budget, USADF programs impact more than 1.5 million people in marginalized
     communities across Aftica. USADF grants create a ripple effect of economic benefits to these
     communities as local enterprises are strengthened. Their growth drives sustainable, scalable
     outcomes that in nun generate ongoing economic activities that exceed the Oliginal grant value
     several times over.

     USADF estimates that the cun·ent grant portfolio of 336 projects will stimulate over $155 million
     dollars of new economic activities in areas where economic opportunities are virtually non-existent.
     Evidence indicates that the revenue increases and income improvements from these programs
     translate into better nutrition, greater access to education and health care, and improved livelihoods.
     USADF creates the potential for shared prosperity across populations outside the mainstream. For
     example, the job training and placement projects in Somalia engage youth on a productive path to
     gainful employment. The Turkana Initiative in Northern Kenya is supporting economic opportunities
     in agriculture and livestock.

     The majority of USADF grants focus on economic development activities in agricultural production
     and other food security areas. These projects help rural farmers grow more food to feed their
     families and sell more of their products in commercial markets. Increased revenues generate more
     income that enables people to purchase other goods and services such as food, education, health care,
     and housing. These basic outcomes significantly improve the quality of life for individuals and
     communities. The following measures, based on USADF's most recent 2 annual assessment of
     program performance indicators (API), provide an ovelview of the positive measurable impact
     USADF grants are having in marginalized communities across Afiica.

     $155 Million of New Economic Growth in Marginalized Communities
     hnproved livelihoods and well-being are often linked to access to gainful employment. And
     employment requires a sufficient level of long-term economic activity to be present in communities
     where people live. USADF grants work to increase sustainable economic growth in marginalized
     communities across Afiica. USADF measures economic opportunity from API data that examines
     three factors:
                      First, FY 2012 data shows that 45%3 of all USADF grants will generate an additional
                  $3.5 of new organizational revenues for each one dollar disbursed. If this rate is applied
                  to USADF's current grant pOltfolio ($57 million). then one may project that USADF
                  investments help spur more than $90 million4 of new economic activity over the grant
                 period (3-5 years).
                      The second growth factor comes from the grant investment itself, which results in
                  another $31 million of new economic activity in the grantee community.
                      The third factor captures the economic growth of grants that continue to generate
                  economic benefits after the grant expires. USADF performance measures confirm that at
                 least 79% or more of USADF grantees continue to operate for a three year period after
                  grant funding ends. To capture this out-year growth, USADF conservatively estimates
                 that the 79% of the population of expansion grants will continue to perform, but at only
     2 Annual Perl'ormance Report for FY 2012
     345% of the active grant population bas cumulative revenue growth that exceeds the gJlIJlt value. 53% fucus on capacity development and
     revenue growth but do not exceed the grant value, and 2% accounts for grants that may be temUnated prematurely.
     4 45% ofpopulation are growth grants x 79% sus1ainability rate x additional revenue growth estimated to at least equal the halfthe value of the
     original growth $90 Million




                                                                             6
                half of wbat was achieved in the active phase of the grant. This creates an additional $37
                million of long-tenn economic growth potential in marginalized communities. This
                results in a combined benefit of more than $155 5 million ofnew economic growth.

1,500,000 Beneficiaries Across Africa
Measuring actual job growth and direct economic impact is very challenging and costly for
development organizations. It is particularity difficult for an agency the size of USADF, which
operates in remote, conflict, and other hard to reach environments. However, based on USADF's
most recent perfonnance analysis of annual reporting data, a typical USADF grant provides a direct
positive economic benefit for an average of 897 workers and/or farmers. If this rate is applied to
98% ofUSADF's current grant population (336 projects), then USADF can estimate that its current
portfolio positively impacts nearly 300,000 people in areas of severe economic hardship. This
number reasonably can be extended when accounting for the number of family members who also
benefit from the increased income of the workers and farmers. Public demographic data 6 suggests
that a mean household family size in Sub-Saharan Africa is at least five people. Using this value
raises the impact level ofUSADF's current portfolio of projects to over 1,500,000 beneficiaries. The
social benefits from this increased economic activity often translate into better diets, better access to
education and clean water, and better health care for those living on the edge of poverty in Africa's
most marginalized and underselved communities.

Benefits of the USADF Approach

SPEED - USADF's streamlined procedures and model provide u.s. policy makers with a rapid
response unit for Africa. USADF began operations in LibeIia, Mauritania. and Zimbabwe in less than
100 days. The USADF model enabled it to establish funded and operational programs in Burkina
Faso, Malawi, Burundi, and Kenya in less than 12 months.
COVERAGE - USADF's field model, managed on the ground by Afiicans, allows U.s. foreign
assistance dollars to go where other programs cmmot send them. This was most recently illustrated
by new 2011 and 2012 program activities in conflict areas of Zimbabwe, the Sahel, and Somalia, and
in the remote areas of Niger, and in the Turkana region in Kenya.
INNOVATION - USADF's small size provides flexibility for greater innovation and
experimentation with new approaches to development. In FY 2013 and FY 2014, USADF will
introduce new approaches to ensure that broader whole of government initiatives such as YALI
(Young Afiicans Leaders Initiative) and Power Africa reach out to hundreds of remote and
marginalized communities across Africa. Since 2011, USADF programs have been providing on the
ground results for Feed the Future objectives. USADF's model focuses on responsiveness, local
ownership, and greater African participation in the development process at both the design and the
implementation phases. These lessons are instructive to the broader development sector as it works
through reforming its current approaches.

LOWER COST /SUSTAINABLE MODEL - USADF's model of providing grants directly to
marginalized groups in Afiica using African technical partners and country coordinators lowers the
cost to deliver program oversight and technical support and helps to create a sustainable development

SNew Economic Activity = (aclivity from income geot:f1lting developmeDl projocts) + (aclivity from standard development projects) + (RVeltue5
achieved by expansion gJ1ID1S in out yeaus) ie. (3.5 x S51M x 45%)+ ($51M x 53%) + (79% x $9OMI2) = S155 Millio.n: accounting for 2%
early tenuinations
, See USAID supported www.StatCqaplier.com application for additional details.




                                                                      7

capability within each cmmtry where it operates.
RESPONSIVENESS - USADF's can rapidly respond to direct requests from community groups and
small businesses to meet locally identified needs and opportunities. The approach is not burdened
with requirements to work through inefficient centrally planned government initiatives or through
large government bureaucracies. USADF's simplified grant application and disbursement processes
ensure that the grantee's voice and urgency are not lost in overly prescriptive top-down "solutions".

(Continued on next page)




                                                   8

        Program Locations and Funding Levels
                                                                                                            Table I - Active Grams 7 by Counuy in FY 2013
        As of March 31, 2013, USADF had over 336 active project grants
        in 21 countries, representing $56.5 million invested in small                                            COllntl'     GI.lIIl ~   (.1.1111' ;1111('   S
        enterprises, farmer associations, cooperatives, and community                                        ~~~
                                                                                                                                 16          3526687
        groups that improve food production, increase income levels, and                                                         19          3,500,089
        improve social benefits in poor communities. Table 1 shows the                                                           22          3416363
                                                                                                                                 21          3,378.784
        number and value of active grants by country. Active projects are                                                        18          3 37030
        all USADF funded grants that have not expired. Figure 2 below                                                            16          3,277,585
        shows areas of past, present, and planned USADF program                                                                  19          3,235848
                                                                                                              Liberia            24          3129684
        activities. The map also shows Feed the Future priority countries,                                    Mauritania         20          2,909485
        and USADF's new sU'ategic initiative that targets marginalized                                        Ken                14          2837 2
                                                                                                                                 22          2,748,324
        groups in the Sahel region of Africa.
                                                                                                              BwkinaFaso         19          2 45 88
                                                                                                                                 16          2,437,048
                                                                                                                                 12          2427348
        Figure 2 - Past, Present, and Planned Program Areas                                                                      16          2,366.128
                                                                                                                                 16          2,285,799
                                                                                                                                 9           1.436,201
                                                                                                                                 5             921,534
                                                                                                                                 3             697613
                                                                                                              Guinea             2             480.000
                                                                                                                                336         56 13 450
                                                                              \)
                                                                                       \        EGYPT


  SENEGAL


CAPE VERDE
    e




                :m~:

                                                                                                        ,~)
                .w.~.
                ...J.::;o'   PRIOR PROGRAMS


                             CURRENT PROGRAMS
                                                                                                        )    /
                             EXPANSION AREAS
                                                                                                        \J
               0             FEED the FUTURE COUNTRIES

                i-I                                                                        LESOTllO
                I._I         SAHEL INITIATIVE




        7 Counts all project grants not expired on March 31 , 2013 and excludes Ambassador.; Self-Help gr.mts and Partner Cooperative AgJeem.ent
        Grants.




                                                                              9
USADF Operations and Program Management

USADF takes its mission and operational management responsibilities seriously and is constantly
looking for new ways to establish greater degrees of cost efficiencies and improve areas of program
effectiveness. USADF management conducts biweekly reviews of department operating budgets and
key grant-making activities. Program management teams utilize quarterly grantee self-reporting, in­
countty monitoring, and technical support from Country Program Coordinators and implementing
Partner Organizations to oversee grant performance. USADF Washington program staff conducts
periodic on-site visits to support the grant monitoring and the critical project selection activities.
Overall operational and program performance trends have continued to be positive.

Improved Strategic Partnu Funds Utilization

In 2013, USADF received $1.3 million in Strategic Partner (SP) funds and applied $1.8 million
toward FY 2013 projects. The table below shows the progress USADF has achieved in closing the
lag time between receipt and use of donated funds. USADF now fully utilize donations within 12 ­
18 months of receipt.

Strategic Partner Funds                  2008             2009        2010        2011               2012     2013
SP Funds Collected                      S4.7M             S3.3M      $4.8M       $0.8M               $l.3M   $l.3M
SP Funds Applied to Projects            $l.OM             $4.0M      $2.9M       S2.5M               S1.6M   $1.8M
*Cumulative sum of all funds received to-date from 2004

Improved Internal Controls

In 2013, the USADF Internal Audit Unit continued implementing a systematic plan and approach to
review the financial management and accounting for USADF funds provided to project grants,
partner grants, and country coordinator offices. Audits are conducted by USAID Inspector General
approved audit firms.

EiDIIII&il!1 All!Ul ~~               fXl~   ss;l)siYlsd      fYl~ ~gWl!I£1s:d   D:l~   Ssbs:dDls:d      fYlJ~ondn~
Projects Grants                                 61                  61                    68                 68
Partner Grants                                  19                  19                    15                 15
Coordinator Offices                              7                   6                     6                 6

ProgI°am Quality Assurance through MOnitoring and Evaluation

Achieving positive program results is more than a matter of program efficiencies. It also requires
accountability, evidence-driven approaches, effective monitoring of grant activities, and the regular
evaluation of programs. These management actions provide the information necessary to assess
program effectiveness, to learn from experiences, and to plan for future programs and resomce
allocations.

Acting on Monitoring and Evaluation Evidence
Closely tracking the progress of grant implementation plans and budgets is an important grant
management function to increase successful grant outcomes. Monitoring can identify early problems
and enslll"e that additional support is applied, and provide necessary evidence for impact assessments.
The Regional Director and Field Operations staff are responsible for ensming Partners Organizations



                                                                  10 

provide quality technical support to Grantees consistent with the terms of their cooperative
agreements. Monitoring includes regular reviews of Grantees' quarterly reports, and regular sites
visits to Grantees by Partner Organizations and by USADF staff Each project grant with a value
greater than $100,000 also receives an independent financial audit on its use ofUSADF grant funds.
At the end of a grant, a Grant Close-Out procedure is completed for each grant. The close out
process includes a final accounting of grant funds, an assessment of the grant's outcomes, and a
determination on the sustainability of the project.

Every six months, Regional Directors conduct a detailed review of all active grants in their regions to
monitor and assess individual project performance and to determine the overall effectiveness of grant
programs within their regions. Assessments are perfOlmed based on information received from site
visits and quarterly grant progress reports. The results are then summarized and presented to
USADF management in a Bi-annual Program Review (BPR) meeting and report in April and
October of each year. The BPR helps establish clear lines of accountability and responsibility for the
overall program results and program effectiveness.

The BPR process provides for an extensive assessment of all active grants and their achievement of
project specific activity, output, and outcome performance indicators. The process incorporates an
evidence-based approach to monitoring. The focus of the assessment process shifts as a grant
progresses through its project lifecycle. During the early stages of the grant, the grading focuses on
project activities such as training, acquiring new equipment, or establishing new production
capabilities. At the middle stage of the grant, the assessment model looks more closely at how output
targets are being achieved against goals set at the beginning ofthe project.

Typical output measures include increased production targets and sales revenue goals compared to
baseline values established at the beginning of the project. In the final phase of the grant, the
assessment focus shifts to grant outcomes. Outcomes are typically measured in terms of increased
income levels and the numbers of people directly benefiting from the project. This approach allows
for USADF staff and partners to track grant progress in a near "real-time" manner so that grantees
can make the adjustments to their implementation plans in order to achieve better project outcomes.

The table below is a copy of a recent bi-annual program pelformance review. It contains summary
performance assessment information about individual grants within a particular countIy. The review
includes evaluations from both implementing in-country partner staff and USADF Washington staff.
Based on the review, grants are given a performance grade using a standard grading and assessment
template. Grants with lower grades (C - F) are given special attention from Partner Organizations to
help remediate the project difficulties. As a last resort, grants with failing grades may be terminated.
The review keeps USADF focused on results.




                                                  11 

Table 2 - Portfolio Perfonnance Status for Period through 3/31/13
                       ,-
                                          Active Value               FY12            Date of Last
                                                                                                                  ProJect GRADES «_ _   I,
                        -ActIve                          "Value     Days tflil         Project      GPA
                        PrOjects             (USO)       DisbTD                                              A                     0
                                                                     Olsb'            Review                         B        C                F

  Benin                         22        3,416,363       70%            78          Mar 2013       3.31'   11   6
                                                                                                                ---   ­ 1-         2           0
  Burkina Faso                  19        2,545,288       32%           154          Apr 2013       2.4!     2   3
                        -                                                                                          -- t--­7        2           0
  Burundi                       16        2,366,128       61%           129          Mar 2013       2.81'   5    4       2         3           0
                                                                                                            -­ --­
  Guinea                        2           480,000       12%           N/A          Oct 2012       N/A     -
                                                                                                               ---- t--­-
                                                                                                                 -                 -           -
  liberia                       24        3,129,684       54%           130          Mar 2013       2.n      5      11        2    3           1
                                                                                                               -r   - - t--­
  Mali                          16        2,437,048       52%           127          Mar 2013       3.51'    7        3    1  0                0
                                                                                                                r   -
  Mauritania                    20        2,909,485       46%           122          Apr 2013       2.91'    3       10    2  1
  Niger                         18
                                     -
                                          3,337,030
                                                                                                                r   - ­ - - I---­            -0­
                                                          74%           119          Mar 2013       3.3!     7       8        2    0           0
                        -                                                                                                -­
  Rwanda                        16        3,526,687       74%            98          Mar 2013       3.3!     7       4        3    0           0
 Senegal                        16        2,285,799       69%
                                                                                                                         -­
                                                                         86          Apr 2013       3.4      7       4        0    1           0
  Kenya                         14        2,837,922       37%           130          Apr 2013       2.2!     3       2        2    6          -0
                                                                                                                r - - t--­
  Malawi                        12        2,427,348       70%           105          Apr 2013       2.9!     4     4     3         1           0
- - - - - -­           1-.                                                                                     -r­ -
 Tanzania                       19        3,235,848       82%            81          Apr 2013       3.11'   11     1     3         2           1
                                                                                                                r -­
  Uganda                        27        5,618,690       70%           110          Apr 2013       2.9!    12     6     2         3           2
                                                                  1-­                                          -r-
 Zimbabwe                       16        3,277,585       73%            96          Apr 2013       2.U      5      6         2    1           2
                            -                                                                                    - --­ -
 Somalia                        9         1,436,201       74%           142          Apr 2013       3.9!     8       1        0    0           0
  Botswana                      5           921,534       87%           N/A          Ap r 2013      1.8!     1       1        0    2           1
                       -                                                                                       r    - ­ 1--­
 Cape Verde                     21        3,378,784       77%           N/A          Apr 2013       2.8     4        11   5        0           1
                                                                                                              -r    -­ -
 Ghana                          3           697,613      100%           N/A          Apr 2013       3.3!    1         2   0        0           0
                                                                                                               r    -­ -
 Nigeria                        22        2,748,324       54%           176          Apr 2013       2.91'   6        7    3        1           1
                                                                  f-.                                          r    - -
 Zambia                         19        3,500,089       72%           160          Apr 2013       2.9!    9         3   3        2           1
            ------­                                                                                            r    -­
          Total              336         56,513,450       65%           1201'                       2.9     118     97        43   30         10
 Small Grants                97             786,047       86%

1 Active Projects = any Irant that expires after 3/31/13, (not Partner CAs or Self Help Sma" Grants) 

2 Active Value = sum of obligated USO amount for all active grants, (not Partner CAs or Self Help Small Grants) 

3 " Disb = sum of all disbursement for active grants through 3/31/13 in USD / Active Value 

4 Avg Days to 2"" Disbursement equals the average days from obligation date to 2'fIil disbursement date for FY12 projects disbursed In FY12 

  and FY13 - the goal is 135 days. (Note,ln April 2014, the review period will shift to disbursement of FY13 grants.)
5 Date when last Comprehensive Portfolio Review was conducted by Regional Director and field team.
6 Grades of projects that were active on March 31, 2013 and are at least six months old with one OR submitted.
  A = 8O'J(, or better project achievement levels ,and meets disbursement plans, and provides quality quarterly reports on time. 

  B = 50% or better project achievement levels, and meets disbursement plans, or provides quaDty quarterly reports on time. 

  C = 50% or better project achievement levels, or meets disbursement plans, or provides quality quarterly reports on time. 

  D= meets none of the performance categories, or two consecutive .C". 

  F= after two consecutive -0- grades. 

7 Percent Projects graded 89%1' = 298/336; (40% A, 33" B, 14" C, 10% D, 3" F)




Evaluation

In addition to extensive internal and field based monitoring of grants, USADF also uses external
independent program evaluations to understand overall program effectiveness and impact. Such
evaluations are time consuming and costly and are therefore conducted on a strategic basis and to
meet specific and targeted programmatic goals. For example, an independent in-country program
evaluation was conducted in Benin in FY 2012 for the Government of Benin (GOB) to assess the
impact of the USADF grant program in Benin. The GOB has a particular interest in the USADF
program because it co-funds all USADF development projects in Benin. The evaluation report was


                                                                              12 

very positive about the impact of USADF grants and resulted in a GOB decision to continue to
provide matching funds for USADF program grants for another five years. (The GOB contIibutes
about $500,000 per year to USADF to support the Benin grant program). In FY 2014, $80,000 is
allocated to conduct additional external program evaluations.

Other program evaluation efforts include feedback from external audit activities conducted by the
Office of the Inspector General (OIG) based in Dakar Senegal. Over a recent five year period,
program audits have been done in Ghana (2008), Senegal (2008), Nigeria (2011), and Cape Verde
(2012). With each audit and resulting recommendations, USADF is able to improve its operations
and program initiatives to improve the effectiveness of achieving its mission.

A recent OIG program evaluation report in Cape Verde (2012) underscored the progress USADF has
made in using assessments to improve their program effectiveness. The report stated,

        "The audit team found that USADF's activities were expanding local capacity to promote and support
        grassroots participatory development Estrategos and nine of the ten grantees had accomplished or were
        on track to accomplish their project goals, which were general objectives like improving beneficiaries'
        quality of life. (The tenth grantee's project had not been active long enough for the auditors to make a
        judgment.) To date. the program has led to new jobs increased incomes. improved liyjng standards. and
        less reliance on imported goods for USADF beneficiaries. Perhaps even more notable was that the
        grantees demonstrated increased managerial aud technical capacity to conduct development activities­
        an improvement that should help sustain the program's impact."s

BuDding Agency Capacity

In FY 2012, USADF continued to take steps to improve its ability to gather and utilize evaluation
information to improve program effectiveness and cost efficiencies. Actions in FY 2012 included a
transition to a more integrated grant, contract, and financial accounting system that provides better
financial tracking information and reporting capabilities for improved management and analysis.
USADF's bi-weekly program status meetings and its bi-annual program reviews create an
opportunity for Field Operations staff and USADF management to access what is working and what
areas require adjustments. USADF is refining its internal annual budgeting processes to ensure a
greater linkage between strategic program priorities and resource allocations. The improvements
also include a higher degree of participation by budget managers that in nun leads to greater
ownership and accountability for results. USADF will be conducting a series of FY 2013 program
funding reviews with Field Operations to evaluate areas where it can improve on grant design
processes, lower grant management transactions costs, and consolidate monitoring and pelformance
management practices.




I   AUDIT REPORT NO. 7-ADF-12-008-P page 1



                                                          13 

Analvsis o(Financial Statements

USADF is pleased to report that in FY 2013 the FOlmdation continued to receive an unqualified opinion
on all financial statements from its independent auditors, GKA, P.C. Since FY 2009, USADF has
received an unqualified opinion on the Balance Sheet, the Statement ofNet Costs, the Statement of Net
Position, and the Statement ofBudgetary Resources.           .

Assets

USADF's Fund Balance with Treasury increased, from $32.6 million at the end ofFY 2012 to $33.9
million at the end of FY 2013. The increase of $1.3 million can be attributed to an increase of
unobligated funds carried fOIWard from FY 2012.

Cash and Other Monetary Assets consist of foreign currency donations made by African
governments and private-sector entities with which USADF has established strategic partnerships.
The funds are held in bank accounts in each country where a strategic partnership is in effect. These
assets decreased, from $4.9 million at the end ofFY 2012 to $4.1 million at the end of FY 2013 .
Pledges remained consistent from FY ~012, however, disbursements continue to be made.

Other decreased from $3.2 million at the end ofFY 2012 to $2.3 million at the end ofFY 2013. In
the third Quatter of FY 2013, grantees were found to have expensed 60% of the funds disbursed,
resulting in a grant advance entry recorded at 40%.

L1abDltles and Net Position

Liabilities did not change significantly from FY 201 2 to FY 2013. USADF's Net Position (the sum
of the Unexpended Appropriations and Cumulative Results of Operations) at the end of 2013 as
shown on the Balance Sheet and the Statement of Changes in Net Position was $39.7 million, a
$700,000 decrease from the previous fiscal year's balance of $40.4 million.           Unexpended
Appropriations of $35.6 million represent funds appropriated by the Congress for use over multiple
years that were not expended by the end ofFY 2013.

Net Cost ofOpel'stions

The Net Cost of Operations is defined as the gross (i.e., total) cost inCWl'ed by the Agency, less any
exchange (i.e., earned) revenue. Program costs assigned to program activities, such as grants and
cooperative agreements, decreased from $73.8 million in FY 2012 to $21.5 million in FY 2013, due
primarily to a decrease in overall funding. Costs not assigned to programs, such as office expenses,
staff salaries, and other administrative costs, continued to decrease from the previous year as a result
of the priority set by USADF management to move toward achieving the lowest overhead rate in the
Federal government.

FOlty-three percent of USADF's non-program expenses are related to payroll. Forty-one percent
relates to rent, travel, supplies, publications, training, contractual services, and infollDation
technology; the remaining sixteen percent relates to the on-the-ground presence that USADF
maintains in African countries with the field coordinator offices.




                                                  14 

Budgetary Resources

USADF's budgetary resources consist of its annual appropriations from Congress, which are available
for two years, and donations from strategic partners. USADF's FY 2012 appropriations were $30
million; its FY 2013 appropriations are $30 million, of which $1.5 million was reduced by
sequestration ordered by the President. USADF received $1.5 million in donations from strategic
partners, representing a decrease of approximately $100,000 from the $1.6 million received in FY
2012.

Unobligated Balances increased from $5.7 million at the end ofFY 2012 to $7.5 million at the end of
FY 2013. The Obligations Incurred line decreased from $39.5 million in FY 2012 to $28.9 million in
FY 2013. The decrease of$10.6 million is due to multiple factors among which are foreign currency
adjustments, an across-the-board cut of appropriations, and the reduction of costs associated with
administration and grant programming.




                                                15 

USADF Internal Controls. alld Legal Comp/iallce




December 2, 2013

General FMFIA Assurance Statement

The Federal Managers' Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the statutory
basis for management's responstbility for and assessment of accOlmting and administrative internal
controls. Such controls include program, operational, and acbninistrative areas, as well as accounting
and financial management The Integrity Act requires federal agencies to establish controls that
reasonably ensure obligations and costs are in compliance with applicable law; fimds, property, and
other assets are safeguarded against waste, loss, unauthorized use, or misappropriation; and revenues
and expenditures are properly recorded and accounted for to maintain accountability over the assets.

It is my infOlmed judgment, as the head of the United States African Development FOlmdation that I
make a statement of unqualified aSSlD.1Ulce (no material weaknesses reported) to the adequacy and
effectiveness ofUSADF internal controls to achieve the objectives ofeffective and efficient operations,
reliable financial reporting, and compliance with applicable laws and regulations.




Shari Berenbach, President and CEO




                                                  16 

December 2, 2013

Internal Control over Financial Reporting Assurance Statement

The United States African Development Foundation's management is responsible for establishing and
maintaining effective internal control over financial reporting, which includes safeguarding of assets
and compliance with applicable laws and regulations. USADF assesses the effectiveness of USADF
internal control over financial reporting and is working toward full compliance with OMB Circular A­
123, Management's Responsibility for Internal Control. Based on the results of our assessment, the
USADF can provide a statement of unqualified assurance that internal control over financial reporting
as of September 30, 2013 is operating effectively and that no material weaknesses have been found in
the design or operation ofthe internal controls over financial reporting.



Shari Berenbach, President and CEO




                                                 17 

December 2, 2013

Annual Assurance Statement on Financial Management System

The United States African Development FOWIdation has been using the Oracle Federal Financial
System hosted by the Administrative Resource Center of the Bureau of Public Debt (ARClBPD),
Department of Treasury since October 1, 2011. Previously, from FY 2004 to the end of FY 2011
USADF used the Oracle Federal Financial System hosted by the National Business Center (NBC)
Wider Department of Interior. Based on the results provided in the FY 2013 Statements on Standards
for Attestation Engagements (SSAE) 16 Report on ARClBPD's Oracle FedeI-al Financial System, and
the related complementary controls in place at USADF, I am able to provide a statement of substantial
compliance that the USADF's Financial Management Systems confonn to government-wide
requirements mandated by the FFMIA and OMB Circular No. A-127, Financial Management Systems,
section 7.



Shari Berenbach, President and CEO




                                                 18 

OMB Grcular A-123 Compliance Progress

In 2011-12, management strengthened its internal control environment by formalizing annual
internal control assessment process. This enhanced approach was established as an institutional
practice to increase confidence in the level and quality of Management's Annual Statements of
Assurance on internal controls. The adoption of a continuous improvement internal control
process will include:

   (1) A regular review of the organizational culture and structure: areas of authority and
   responsibility and delegations, reporting hierarchies, human capital policies, expectations of
   integrity and ethical patterns of behavior.
   (2) A risk assessment of internal and external factors and previous findings.
   (3) Assessment of policies, procedures, mechanisms, segregations of duties, physical
   controls on assets, authorizations processes, documentation and access to documentation,
   including those related to information systems, and mechanisms of communication of
   information internally and externally.
   (4) Monitoring the effectiveness of these processes as a normal course ofbusiness, including:
   identificat.ion and reporting of deficiencies and consideration and, where appropriate,
   planning and implementing corrective action.

A directive issued by the President on November 3, 2009 formally outlined the steps and
timeframes associated with the fOlmal implementation of USADF's enhanced internal control
assurance process. As a result, an Internal Control Asses~ment Committee (ICAC) was
established and has completed a risk assessment matrix on USADF major business processes.
Based on that assessment the ICAC conducted a business evaluation and has a draft report and
recommendations approved by the President.

The Internal Control Assessment Committee (ICAC) conducted two meetings in FY 2012 to
review and update as necessary the prior committees Risk Assessment matrix and risk ranking.
The ICAC recommended proceeding with the prior committee ranking and with the next risk
category to be assessed - Field Offices - paI1icularly in light of recent events concerning Field
Office activities in Senegal. Action was taken to proceed with an assessment of Field Office five
control categories (origination, budget, obligation, disbursement, and usage). The assessment
would involve collecting relevant control information and documentation related to each control
category, reviewing the data, and making recommendations to address areas of weakness.

During the remaining period of calendar year 2012 and the beginning period of fiscal year 2013
USADF completed a detailed assessment of Field Office financial management and reporting as
a component of its broader Financial Policy and Procedures review and update processes.
Specifically this review resulted in the development of modified accounting, reporting and
monitoring procedures as identified in the revised Manual Section 582 HOlds Held Outside
Treasury - Field Offices.

A component of USADF the broader Financial Policy and Procedures review and update
processes also has implications for the role and practices of the ICAC. When completed the



                                               19 

Financial Policy and Procedures review and update processes will contain some new policies and
practices on internal controls, internal control evaluation standards, and risk assessment
guidelines in order to further strengthen USADF capacities to adhere to the principles outlined in
the OMB circular A-123 -Management's Responsibility for Internal Control. These policies and
procedures will be a part of the revised USADF Financial Policy and Procedures manual sections
on Internal Controls which will include details on internal control definitions, management
responsibilities for internal controls, and the role of senior management advisory committee on
internal controls and risk assessment. Implementation of enhanced ICAC operations is expected
to begin in FY 2014.

Internal Audit Function

Prior to the IG audit activities, USADF management moved to establish and strengthen an
independent internal audit capability that reports directly to the USADF President and the Board of
Directors. The internal audit function will focus its efforts on assessing compliance with USADF
financial policy and practices at the Country Coordinator Offices, USADF Partner Organizations,
and the USADF project grantees. Each assessment will be followed by an Internal Audit Report and
follow-up project plan.

In 2013, the USADF Internal Audit unit continued implementing a systematic plan to review the
financial management and accounting for USADF funds provided to project grants, partner grants,
and country coordinator offices During FY 2013,USADF oversaw field audits for 68 grants, 6
COlmtry Coordinator offices, and 15 Partner Cooperative Agreement grants.

Integrated Contracting and Financial Management Practices

In FY 2012, USADF outsourced financial management, contracting, and travel management
fimctions to the Bureau of Public Debt's Administrative Resource Center. In FY 2013, the transition
mode shifted to a stable operational phase. The transition now provides an integrated Grant Making,
Grant Disbursement, Contracting, and Financial Accounting capability to improve the reporting and
control process through online records management, timelier reporting, greater standardization of
policy practices, and increased assurances of compliance with the Federal Acquisition regulations.
USADF also expanded its inter agency agreement with the National Business Center to take on
expanded Human Resource management functions.


Improper Payments Elimination and Recovery Act (JPERA) Reponing Detail

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) requires agencies to
review their programs and activities increasing efforts to recapture Improper payments by
intensifying and expanding payment recapture audits. All agencies are required to develop a
method of reviewing all programs to identify those that are susceptible to significant elToneous
payments. "Significant" means that an estimated error rate and a dollar amount exceed the
threshold of 2.5 percent of programs outlays and $10 million of total program or activity
payments made during the fiscal year reported or $100,000,000 regardless of the improper
payment percentage of total program outlays.



                                                20 

During FY 2013, USADF reports no IPERA reportable improper payments.

Overpayments to Zambia Grantees

The Administrative Resource Center (ARC), a shared service federal government agency and
component of the u.s. Department of Treasury's Bureau of the Fiscal Service, provides
Financial Management Services for the United States African Development Foundation
(USADF). The service includes processing of authorized foreign CUlTency payments to
USADF's grant recipients in Africa. On January 4,2013, USADF requested that ARC make two
payment transactions in Zambian currency, ZMK, totaling approximately $22,000. Due to a
currency rebasing in Zambia, the ZMK was no longer an available currency on currency
conversion tables at the time the payment transaction was scheduled for processing by ARC. A
new Zambian currency ZMW was in use at the time. ARC overpaid amounts due in Zambian
currency to a USADF contractor and a USADF grantee.

Specifically, ARC processed two improper payments in the new currency in an amount
equivalent to approximately one thousand times larger than the $22,000 amOlmt originally
authorized by USADF. These transactions and the full recovery of the overpaid foreign currency
resulted in a foreign currency exchange loss paid by the Treasury's "Gains and Deficiencies on
Exchange Transactions" account. In summary, the two improper payments, the filll recovery of
Zambian foreign currencies, and the charge to the Treasury's account resulted in no loss of
USADF funds. It should be noted that this improper payment was the result of ARC's elTor.


Limitations ofFinancial Statements

USADF's principal financial statements have been prepared to report the financial position and
results of operations, pursuant to the requirements of 31 U.S.c. 3515 (b). While the statements
have been prepared from books and records in accordance with generally accepted accounting
principles (GAAP) for federal entities and the formats prescribed by the Office of Management and
Budget, the statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                 21 

  ANNUAL PERFORMANCE INFORMATION

  Program Achievements

  USADF achieved several significant steps fOIWard in 2013 programs. Working from a base
  budget of $29 million, dealing with several continuing resolutions (eRs), and undertaking a
  major outsourcing effort USADF was able to provide over $18.5 million of quality grants and
  technical resources to improve food security, income levels, and job opportunities for more than
  125,000 members from rural and underserved community enterprises in Africa. Recent
  improvements in critical grant activities and process we maintained. Quality control,
  implementation monitoring and reporting are a critical priority for all program outputs and
  activities.

  In 2013, USADF used over $1.8 million of African host government strategic partner matching
  funds to stretch U.S. tax dollars further in reaching under-served communities.

  Operational priorities are guided by seven operational priorities to ensure that USADF is
  effectively meeting its obligations to the United States taxpayer and making a positive impact in
  Africa. In FY 2013 the newly install USADF President and CEO launched an extensive strategic
  planning process to better position USADF for increased impact in a climate of uncertain U. S.
  government ftmding priorities.

    2009 - 2013 Op'el'8tional Priol'itifs
        I. Focus program activities on marginalized communities in Africa.
         2.   Invest in Africans and their ideas through participatory development.
         3.   Ensure projects produce long term social and economic results.
         4.   Promote African led and managed field project SUppOlt.
         5.   Achieve the highest levels of openness and transparency in the u.s. government
         6.   Support and develop an equal opportunity, results-driven staff team.
         7.   Model high effectiveness and low overhead operations.

  Three simple performance measures help ensure USADF is maximizing the use of ftmds for
  development grants in Africa is efficiently moving funds to Africa with minimum delays and is
  consistently moving toward lower overhead levels.          The table below shows USADF
  achievements for 2008 through 2013.

  Comparative Per/om/ance Table:
                     FY 2008         FY2009          FY 2010         FY2011          FY2012        FY2013        FY 2013
   Measure
                     Results         Results         Results         Results         Results        Tortlet      Results
Development
Grant Funding        $18 million     $25 million     $22 million     $26 million     $20 million   $J9million   $18.5 million
Levels'
Grant 1-
Disbursement         146 days         78 days         57 days         53 days        48 days       45 days        49 days
Timina
Operating
                        36%            35%              34%              28%             30%        <32%            31%
~seRatio2
   Cooperative Agreement Grants and Project Grants Illcluding use ofStratcgtc Partner Funds
  2 Operating Expenses I CUITcnt Year Appropriations




                                                                22
  Development and Partner Cooperative Agreement grant ftmding levels decreased slightly fl.-om
  $20 million in 2012 to $18.5 million in 2013 due to a lower Congressional appropriation budget
  level and the FY 2013 sequester actions. The target of $19 million in grant ftmding was missed
  Plimarily because of a time extension for a Partner grant in Burundi and delays in staIiing up
  several new program initiatives.

  USADF continues to make progress in improving disbursement times. Disbursement timing
  represents the number of days between the date a legal grant agreement was established and the
  date the first installment of ftmds were released for use by the grantee. Over the five year period
  USADF has made significant improvements in disbursement cycle time for both first and second
  disbursements.

  Operating Expense (OE) levels declined over a five year period from a high of $11.3 million
  FY2009 to $8.9 million in FY 2013, a reduction of more than 21%. Despite the efforts in
  lowering administrative expenses the OE ratio fluctuates with the varying amount of the
  Congressional appropriation. USADF management will continue to look for additional ways to
  streamline internal processes to add efficiencies and lower overall program to expense ratios.

  Other Program Performance Indicators

  A detailed set of USADF performance indicators are displayed in the table below. All
  performance indicators, but one, showed some improvements in FY 2012 due to the effect of a
  larger active portfolio (introduced in FY 2009). The "investment multiplier" (1M) is 'leveling­
  out" at 3.5 and accounts for the active grant portfolio shift from the small and medium sized
  enterprise emphasis pre-2007 to the greater program emphasis on marginalized community based
  grant.. The 1M tracks the net increase in sales revenues for the grant organization for each
  USADF dollar provided to that enterplise. Other measures increased as well. The increase in OE
  is attributable to the decrease amount of ftmds available for program activities.

  Key Perj'onllallce Indicators FY 2012
  (FY]013 Indicators are still beingfinalized at the time ofthis report. We expect thefinal report to be
  completed by the end oLMarch, 2014)
            Indicator               FY08Actual FY09Actuai FY10Actual FYll Actual FY12Actual
Cwnlllative Revenue Growth, active
and recently expired (USD               $112,355    $106,498      $47,863       $70,315       $96,007
thousands)
Investment Multiplier, active and
                                           6.3             3.7      3.5           3.5           3.5
recently t'xpired
Owners, Full-Time Workers, and
Principal Raw Material Suppliers or      106,814     129,400      185,901       230,000       336,623
Farms, active
Women As Percent of Owners,
                                          32%*        34%*         35%*          38%            42%
Workers, Members and Suppliers
Sustainabill~   expired D'ants            79%          70%         770/0*        78%            79%
COWltries with active EEG and OAGs         19              19       19            19             21
Funds received from Strategic Partner   4,713,823   3,809,552    4,864,273      756,244       1,327,383
cOWltries (USD)




                                                    23 

             Indicator                    FY08ActWII   FY09Actuai   FYI0ActuRi   FYll Actual   FYI2 Actual
Average days from obligation to 111
                                               146          76         55*           56            48
disbursement
Overhead ($000)                              10,604      11,334       10,320        8,314         9,096
OlE (Operating Expense to Total
                                              260/0         25%        24%          21%           26%
Funds Available)

  ~graphical    updates to FY2012 reported values




                                                       24
December 2, 2013



              UNITED STATES AFRICAN DEVELOPMENT FOUNDATION

                                MESSAGE FROM THE CFO

I am pleased to present the fiscal year 2013 comparative Financial Statements for the United
States African Development Foundation (USADF). The financial statements and performance
results data are complete and reliable and are in accordance with OMB requirements. They are
also in conformity with generally accepted accounting principles.

The USADF's administrative and fiscal accounting systems for the year ended September 30,
2013 are in substantial compliance with the requirements of the Federal Financial Management
Improvement Act (FFMIA).

USADF offers a statement of unqualified assurance for the requirements of the Federal
Managers' Financial Integrity Act of 1982 (FMFIA). The USADF has appropriate management
controls in place to ensure that internal controls are operating in accordance with applicable
policies and procedures and are effective in meeting the requirements imposed by the FMFIA
andFFMIA.




William E. Schuerch, Chief Financial Officer




                                               25 

THIS PAGE INTENTIONALLY LEFT BLANK 

          SECTIONll 



INDEPENDENT AUDITOR'S REPORTS 

THIS PAGE INTENTIONALLY LEFT BLANK 

               ~
                 gICa,p.c.
(                      --
                        Certified Public Accountants
                        & Consultants




www·gka&pa.com
                                          Independent Auditor's Report on Financial Statements

                                Inspector General, u.s. Agency for International Development, and
                                Board of Directors and the President,
                                United States African Development Foundation:

                                Report on the Financial Statements

                                We have audited the accompanying financial statements of the United States
                                African Development Foundation (USADF), which comprise the balance
                                sheets as of September 30, 2013 and 2012, and the related statements of net
                                cost, changes in net position, budgetary resources, and custodial activity for the
                                years then ended, and the related notes to the financial statements.

                                Managemell1's Responsibility for tl,e Financial Statements

                                Management is responsible for the preparation and fair presentation of these
                                financial statements in accordance with accounting principles generally
                                accepted in the United States of America~ this includes the design,
                                implementation, and maintenance of internal control relevant to the preparation
                                and fair presentation of financi~ statements that are free from 'material
                                misstatement, whether due to fraud or error.

                                Auditor's Responsibility

                                Our responsibility is to express an opinion on these financial statements based
                                on our audits. We conducted our audits in accordance with auditing standards
                                generally accepted in the United States of America; the standards applicable to
                                financial audits contained in Government Auditing Standards, issued by the
                                Comptroller General of the United States; and applicable provisions of Office
                                of Management and Budget Bulletin No. 14-02, Audit Requirements for
                                Federal Financial Statements. Those standards require that we plan and
                                perform the audits to obtain reasonable assurance about whether the financial
                                statements are free from material misstatement.
     1015 18th Street, NW 

           Suite 200 

    Washh1pm, DC 20036 

      Tel: 202-857-1777 

      Fax: 202-857-1778 





                                                       Member ofthe American Institute of Certified P"blic Accountants
An audit involves performing procedures to obtain audit evidence about the amounts and
disclosw'es in the fmancial statements. The procedures selected depend on the auditor's
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to USADF's preparation and fair presentation of the
financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of
USADF's internal control. Accordingly, we express no such opinion. An audit also includes
evaluating the appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating the overall
presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.

Opinion

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of the United States African Development Foundation as of
September 30 2013 and 2012, and its net costs, changes in net position, budgetary resources,
and custodial activity for the years then ended in accordance with accounting principles
generally accepted in the United States of America.

OIl,er Matters

Required Supplementary Information

Accounting principles generally accepted in the United States of America require that the
information in the Management's Discussion and Analysis be presented to supplement the
basic financial statements referred to in the first paragraph of this report. Such information,
although not a part of the basic financial statements, is required by the Federal Accounting
Standards Advisory Board who considers it to be an essential part of financial reporting for
placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary
information in accordance with auditing standards generally accepted in the United States of
America, which consisted of inquiries of management about the methods of preparing the
infOlmation and comparing the information for consistency with management's responses to
our inquiries, the basic financial statements, and other knowledge we obtained during our
audits of the basic financial statements. We do not express an opinion or provide any
assurance on the information because the limited procedures do not provide us with sufficient
evidence to express an opinion or provide any assurance.

Other Infonnation

Our audits were conducted for the purpose of forming an opinion on the basic financial
statements taken as a whole. The infOlmation in the Message from the President, Message




                                              27 

from the CFO, and Section IV: Other Accompanying Information is presented for the
purposes of additional analysis and is not a required part of the basic financial statements.
 Such information has not been sUbjected to the auditing procedures applied in the audits of the
basic financial statements, and accordingly, we do not express an opinion or provide any
assurance on it.

Other Reporting Required by Government Auditing Standards

In accordance with Govem1llent Auditing Standards, we have also issued our reports dated
December 2,2013, on our consideration ofUSADF's internal control over financial reporting,
and on our tests of its compliance with certain provisions of laws, regulations, contracts, and
grant agreements and other matters. The purpose of these reports is to describe the scope of
our testing of internal control over financial reporting and compliance and the results of that
testing, and not to provide an opinion on internal control over financial reporting or on
compliance. Those repol1s are an integral part of an audit performed in ac-cordance with
Govemment Auditing Standards in considering USADF's internal control over financial
reporting and compliance.




Washington, DC
December 2, 2013




                                              28 

            ~
              gl.Ca,p.c.
,                    "
                              Certified Public Accountants
                              & Consultants




                                         Independent Auditor's Report on Internal Control over Financial 

                                                                  Reporting 


                                    Inspector General, u.s. Agency for International Development, and 

                                    Board of Directors and the President, 

www.gkacpa.com                      United States African Development Foundation: 


                                    We have audited, in accordance with auditing standards generally accepted in
                                    the United States of America; the standards applicable to financial audits
                                    contained in Government Auditing Standards, issued by the Comptroller
                                    General of the United States; and applicable provisions of Office of
                                    Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for
                                    Federal Financial Statements, the financial statements of the United States
                                    African Development Foundation (USADF), which comprise the balance sheet
                                    as of September 30, 2013, and the related statements of net cost, changes in net
                                    position, budgetary resources, and custodial activity for the year then ended,
                                    and the related notes to the financial statements, and have issued our repOlt
                                    thereon dated December 2, 2013.

                                    In planning and performing our audit of the fmancial statements, we
                                    considered USADF's internal control over financial reporting (internal control)
                                    to determine the audit procedures that are appropriate in the circumstances for
                                    the purpose of expressing our opinion on the financial statements, but not for
                                    the purpose of expressing an opinion on the effectiveness ofUSADF's internal
                                    control. Accordingly, we do not express an opinion on the effectiveness of
                                    USADF's internal control.

                                    A deficiency in internal control exists when the design or operation of a
                                    control does not allow management or employees, in the normal course of
                                    performing their assigned functions, to prevent, or detect and correct,
                                    misstatements on a timely basis. A material weakness is a deficiency, or a
                                    combination of deficiencies, in internal control, such that there is a reasonable
                                    possibility that a material misstatement of the entity's fmancial statements will
                                    not be prevented, or detected and corrected on a timely basis. A significant
                                    deficiency is a deficiency, or a combination of deficiencies, in internal control
                                    that is less severe than a material weakness, yet important enough to merit
                                    attention by those charged with governance.
     loti 18th Street, NW 

           Suite 200 

    WublDiton, DC 20036 

     Tel: 202-857-1777 

      Fax: 202-857-1778 

                                                                          Member oftbe American Inditute of G rtified Publk AcrofJnfontr
Our consideration of internal control was for the limited pmpose described in the second
paragraph and was not designed to identify all deficiencies in intemal control that might be
material weaknesses or significant deficiencies. Given these limitations, during our audit we did
not identify any deficiencies in internal control that we consider to be material weaknesses.
However, material weaknesses may exist that have not been identified.

We noted a certain matter involving internal control and its operation that we reported to
management ofUSADF in a separate letter dated December 2,2013.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the
results of that testing, and not to provide an opinion on the effectiveness of USADF's internal
control. This report is an integral part of an audit. performed in accordance with Government
Auditing Standards in considering USADF's internal control. Accordingly, this communication
is not suitable for any other pmpose.




Washington, DC
December 2, 2013




                                                 30 

              ~
,              gI<a,p.c. 

                      ...
                              Certified Public Accountants
                              & Consultants




                                  Independent Auditor's Report on Compliance with Applicable Provisions
www,gkaCiPa,c;om                         of Laws, Regulations, Contracts, and Grant Agreements

                                  Inspector General, U.S. Agency for International Development, and
                                  Board of Directors and the President, 

                                  United States African Development Foundation: 


                                  We have audited, in·accordance with auditing standards generally accepted in
                                  the United States of America; the standards applicable to financial audits
                                  contained in Govemment Auditing Standards, issued by the Comptmller
                                  General of the United States; and applicable provisions of Office of
                                  Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for
                                  Federal Financial Stateme11fs, the financial statements of the United States
                                  African Development Foundation (USADF), which comprise the balance sheet
                                  as of September 30, 2013, and the related statements of net cost, changes in net
                                  position, budgetary resources, and custodial activity for the year then ended,
                                  and the related notes to the financial statements, and have issued our report
                                  thereon dated December 2,2013.

                                 As part of obtaining reasonable assurance about whether USADF's financial
                                 statements are free from material misstatement, we performed tests of
                                 USADF's compliance with certain provisions of laws, regulations, contracts,
                                 and grant agreements, noncompliance with which could have a direct and
                                 material effect on the determination of financial statement amounts, and certain
                                 provisions of other laws and regulations specified in OMB Bulletin No. 14-02.
                                 However, providing an opinion on compliance with those pmvisions was not
                                 an objective of our audit, and accordingly, we do not express such an opinion.

                                 The results of our tests disclosed no instances of noncompliance or other
                                 matters that are required to be reported under Govemment Auditing Standards
                                 or OMB Bulletin No. 14-02.


                                 Purpose of this Report

                                 The purpose of this report is solely to describe the scope of our testing of
                                 compliance and the results of that testing, and not to provide an opinion on
                                 USADF's compliance.
     1015 18th Street, NW 

           Saite200 

    WuhiDgton, DC 2OOJ6 

      Tel: 202-857-1m 

      Pax: 202-857-1778 



                                                                     Member oftht. American In.rtihlte ofCerlified P"blic krormtorzts
This report is an integral part of an audit performed in accordance with Govemmellf Auditing
Standards in considering USADF's compliance. Accordingly, this communication is not
suitable for any other purpose.




Washington, DC
December 2, 2013




                                             32 

THIS PAGE INTENTIONALLY LEFT BLANK 

          SECTIONm 


FINANCIAL STATEMENTS AND NOTES 

TillS PAGE INTENTIONALLY LEFT BLANK
                                      u.s. AFRICAN DEVELOPMENT FOUNDATION 

                                                 BALANCESBEET 

                                         AS OF SEPTEMBER 30, 2013 MI.'» 2012 

                                                    (In DoUars) 


                                                                              2U13         _        20]2
 Ass~ts:
    Intragovemmental
       Fund Balance With Treasury (Note 2~                               $   33,876,612        $   32,559,397
    Total Intragovemmental                                                   33,876,612            32,559,397


    Cash, and Other Monetary Assets (Note 3)                                  4,135,650             4,934,940
    AccOlmts Receivable, Net (Note 4)                                            16,962               400,853
    Property, Equipment, and Software, Net (Note 5)                             343,744               361,330
    Other (Note 6)                                                            2,346,286             3,153,764
 Total Assets                                                            $   40,719,254        $   41.410,284


 Liabilities:
   Intragovernmental
      Other (Note 8)                                                     $     435,690         $      409,134
   Total Intragovemmental                                                      435,690                409,134

   Accounts Payable                                                              71 ,263               44,948
   Other (Note 8)                                                               543,317               551,136
 Total Liabilities                                                       $    1,050,270        $    1,005,218

 Net Position:
  Unexpended Appropriations                                              $   35,558,076        $   35,008,410
  Cumulative Results ofOperations                                             4,110,908             5,396,656
  Total Net Position                                                     $   39,668,984        $   40,405,066
 Total Liabilities and Net Position                                      $   40,719,254        $   41 ,410,284




The accompanying notes are an integral part of these financial statements.




                                                         33
                                    u.s. AFRICAN DEVELOPMENT FOUNDATION 

                                       STATEMENT OF NET COST 

                        FOR THE FISCAL YEARS ENDED SEPTEMBER 30,2013 AND 2012 

                                              (In Dollars)

                                                                       2013             2012
 Program Costs:
   Foreign Grant Program:
     Gross Costs (Note 11)                                 $      21 ,538,941    $   23,846,812
     Less: Earned Revenue                                             (10,225)
     Net Program Costs                                     $      21 ,528,716    $   23,846,81 2

 Costs Not Assigned To Programs                            $        9, 160,571   $    9,219,652
 Net Cost of Operations (Note 10)                          $       30,689,287    S   33.066.464




The accompanying notes are an integral part of these financial statements.




                                                         34
                                U.S. AFRICAN DEVELOPMENT FOUNDATION
                                STATEMENT OF CHANGES IN NET POSITION
                         FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2013 AND 2012
                                               (In Dollars)

                                                                                2013               2012

 Cumulative Results of Operations:
 Beginning Balances                                                         $     5,396,656    $     6,735,729

 Budgetary Financing Sources:
  Appropriations Used                                                            27,343,694         29,639,694
  Donations and Forfeitures of Cash and Cash Equivalents                          1,530,719          1,554.104

 Other Financing Sources (Non-ExchAnge):
   Imputed Financing Sources (Note 12)                                               529,126            533,593
 Total Financing Sources                                                          29,403,539         31,727,391
 Net Cost of Operations                                                         (30,689,287)       (33.066,464)
 Net Change                                                                      (1,285,748)        (1,339,073)
 Cumulative Results of Operations                                           S      4,110,908   $      5,396,656

 Unt'xpended Appropriations: 

 Beginning Balances                                                         $    35,008,410    $    35,085,681 


 Budgeta..y Financing Sow'c('s:
   Appropriations Received                                                        30,000,000        30,000,000
   Other Adjustments                                                             (2,106,640)         (437,577)
   Appropriations Used                                                          (27;343,694)       (29,639,694)
                                                                                    549,666           (77,271)
                                                                            $    35,558076     $    35,008410
                                                                            $    39668 84      $    40 405066




The accompanying notes are an integral part ofthese financial statements.




                                                        35
                                 U.S. AFRICAN DEVELOPMENT FOUNDATION
                                  STATEMENT OF BUDGETARY RESOURCES
                          FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2013 AND 2012
                                                (In Dollars)

                                                                                  2013                2012
 Budgetary Resources:
 Unobligated Balance Brought Forward, October 1                              $    5,747,831      $   10,465.456
 Recoveries of Prior Year Unpaid Obligations                                      1,230,437           3,691 ,672
 Other changes in unobligated balance                                              (587,860)            (437,577)
 Unobligated balance from prior year budget authority, net                        6,390,408          13,719,551
 Appropriations                                                                  30,01l ,939         31 ,554,104
 S ndin authori from offsettin collections                                           41845
 Total Budgetary Resources                                                   $   36,444,192      $   45,273 ,655

 Status of Budgetary Resources:
 Obligations Incurred (Note 14)                                              $   28,899,900      $   39,525,824
 Unobligated balance, end of year:
       Apportioned (Note 2)                                                       3,143,307           2,161,564
       Exempt from apportionment                                                  1,558,742           1,319,247
       Unapportioned (Note 2)                                                     2,842,243           2,267,020
 Total unobligated balance, end ofyear                                            7,544,292           5,747,831
 Total Budgetary Resources                                                   $   36,444,192      S   45,273,655

 Change in Obligated Balance
   Unpaid OblIgatious:
 Unpaid Obligations, Brought Forward, October 1                              $    31,746,506     $    28,128,722
 Obligations Incurred                                                             28,899,900          39,525,824
 Outlays (gross)                                                                 (28,947 ,998)       (32,216,368)
 Recoveries of Prior Year Unpaid Obligations                                      (1,230,437)         (3 ,691 ,672)
 Unpaid Obligations, End of Year (Gross)                                          30,467,971          31,746,506
 Obligated Balance, End ofYear                                               $    30,467,971     $    31,746,506

 Budget Authority and Outlays, Net:
 Budget authority, gross                                                     $   30,053,784      $   31 554,104
 Actual offsetting collections                                                       (41 ,845)
 Budget Authority. net                                                       $   30,011,939      $   31,554.104

 Outlays, gross                                                              $   28,947,998      $   32,216,368
 Actual offsetting collections                                                       (41,845)
 Outlays, net                                                                    28,906.153          32,216.368
 Agency outlays, net                                                         $   28,906,153      $   32,216,368




The accompanying notes are an in~egral part of these financial statements.



                                                         36
                                 U.S. AFRICAN DEVELOPMENT FOUNDATION
                                    STATEMENT OF CUSTODIAL ACTIVITY
                          FOR THE FISCAL YEARS ENDED SEPTEMBER 30,2013 AND 2012
                                                (In Dollal'S)

                                                                                  2013               2012


 Revenue Activity:
   Sources of Cash Collections:
      Miscellaneous                                                           $          9,329   $
    Total Cash Collections (Note 16)                                                     9,329

    Accrual Adjustments                                                            (358,844)           364,317
    Total Custodial Revenue (Note 16)                                              (349,515)           364,317

 Disposition of CoUections:
   Transferred to Others (by Recipient)                                               9,329
   Increase1(Decrease) in Amounts Yet to be Transferred                            (358,844)           364,317
 Net Custodial Activity                                                       $                  $




TIle accompanying notes are an integral part of these financial statements.




                                                         37 

                u.s. AFRICAN DEVELOPMENT FOUNDATION 

                  NOTES TO THE FINANCIAL STATEMENTS 

NOTE 1. SUMMARY OF SIGNIFICANT                       enterprises that benefit under served and
ACCOUNTING POLICIES                                  marginalized groups in Africa.

A. Reporting Entity                                  The Foundation holds custodial receivables
                                                     that are non-entity assets and, if collected, will
The United States African Development                be transfelTed to Treasury at fiscal year-end.
Foundation ("uSADF" or "the Foundation") is
a government-owned corporation established           B. Basis of Presentation
by Congress under the African Development
Foundation Act in 1980 and began operations          The financial statements have been prepared to
in 1984. The Foundation has a unique mission         report the financial position and results of
among U.S. foreign assistance programs, by­          operations of the Foundation. The Balance
passing layers of inefficiencies and working         Sheet presents the financial position of the
directly with the neediest communities in            agency. The Statement of Net Cost presents
Africa. The Foundation uses a participatory          the agency's operating results; the Statement
approach to actively engage marginalized local       of Changes in Net Position displays the
community groups or enterprises in the design        changes in the agency's equity accounts. The
and implementation of development projects.          Statement of Budgetary Resources presents the
This approach ensures these programs are             sources, status, and uses of the agency's
distinctively African initiated and led, resulting   resources and follows the rules for the Budget
in outcomes that best address the real needs of      of the United States Government.
the community.       Together, the focus on
underserved populations and participatory            The statements are a requirement of the Chief
development ensure greater equity and                Financial Officers Act of 1990, the
ownership in the development process. Project        Government Management Reform Act of 1994
success and long term impact is further              and the Accountability of Tax Dollars Act of
enhanced through USADF efforts to establish          2002. They have been prepared from, and are
a network of partner organizations, local non­       fully supported by, the books and records of
governmental organizations, that provide             the Foundation in accordance with the
project     design,     implementation        and    hierarchy of accounting principles generally
management support to USADF grant                    accepted in the United States of America,
recipients. The Foundation reporting entity is       standards approved by the Federal Accounting
comprised of Trust Funds and General Funds.          Standards Advisory Board (FASAB), OMB
                                                     Circular     A-136,     Financial    Reporting
The Foundation maintains a Trust Fund with           Requirements and the Foundation's accounting
the U.S. Treasury in accordance with its gift        policies which are summarized in this note.
authority. Trust Funds are credited with             These statements, with the exception of the
receipts that are generated by terms of a trust      Statement of Budgetary Resources, are
agreement or statute.                                different from financial management reports,
                                                     which are also prepared pursuant to OMB
General Funds are accounts used to record            directives that are used to monitor and control
financial    transactions     arising    under       the Foundation's use of budgetary resources.
congressional     appropriations    or   other       The financial statements and associated notes
authorizations to spend general revenues. The        are presented on a comparative basis. Unless
Foundation provides grants and program               specified otherwise, all amounts are presented
support to community groups and small                in dollars.


                                                  38 

C. Basis of Accounting                                Depending on the nature of the transaction,
                                                      foreign currencies are translated into dollars at
Transactions are recorded on both an accrual          the actual exchange rate received by the
accounting basis and a budgetary basis. Under         Foundation when the transaction is made. The
the accrual method, revenues are recognized           value of obligations incurred by the
when earned, and expenses are recognized              Foundation in foreign currencies varies from
when a liability is incurred, without regard to       time to time depending on the current
receipt or payment of cash.          Budgetary        exchange rate. The Foundation adjusts the
accounting facilitates compliance with legal          value of both fimds held outside of treasury
requirements on the use of federal funds.             and obligations during the year to reflect the
                                                      prevailing exchange rates.           Downward
D. Fund Balance with Treasul'Y and Cash               adjustments to prior year obligations based on
                                                      favorable foreign currency exchange rates will
Fund Balance with Treasury is the aggregate           be made available for obligation. Upward
amount of the Foundation's funds with                 adjustment to prior year obligations based on
Treasury in expenditure, receipt, and deposit         unfavorable foreign currency exchange rate
fund accounts. Appropriated funds recorded in         with the U.S. dollar will be made from funds
expenditure accounts are available to pay             made available for upward adjustments.
current liabilities and finance authorized            Obligations in the appropriated multi-year
purchases. The U.S. Treasury processes cash           funds will not be adjusted based on the foreign
receipts and disbursements of appropriated            exchange rate until they are paid out.
funds. Funds held with/outside the Treasury
are available to pay agency liabilities. Funds        F. Grant Accounting
held outside u.s. Treasury are maintained in
accounts in each country with which the               The Foundation disburses funds to grantees to
Foundation has a Strategic Partnership                cover their projected expenses over a three­
Agreement. Strategic Partner Governments              month period.        Grantees report to the
deposit donations into these in-country               Foundation quarterly on the actual utilization
accounts. In general, grants are funded equally       of these funds. For purposes of these financial
with appropriated funds and donated funds             statements,      the      Foundation        treats
(funds held outside U.S. Treasury). USADF             disbursements to grantees as advances. The
controls all disbursements from these accounts.       total grant advance is forty percent of the
Following is a list of banks where the funds are      amount disbursed to the grantee during the
maintained and where grant funds are                  quarter. In order to ensure timeliness in
processed: Bank Gaborone of Botswana,                 reporting grantee expenditures, the Foundation
Banco Comercial do Atlantico in Cape Verde,           will use estimates to calculate the last quarter's
Standard Chartered Bank in Ghana, Ecobank             grantee expenditures, based on historical
in Mali, Citibank and Zenith Bank in Nigeria.         expenditure trends over a five year period, and
First National Bank of Swaziland in                   disbursement activity funding that quarter's
Swaziland, Standard Chartered Bank in                 activity. The advance will be reversed in the
Zambia, EcoBank Guinea, EcoBank Benin,                following quarter's financial statements. Once
Stanbic      Bank     of    Uganda,      Banque       a grant has closed (expired or cancelled) any
Commerciale du Rwanda, National Bank of               excess disbursement is reclassified as an
Malawi, and EcoBank Senegal.                          Accounts Receivable.

E. Foreign Currencies                                 G. Ar.counts Receivable

The Foundation awards grants to private               Accounts receivable consists of amounts owed
organizations in Africa. Most of the grants are       to the Foundation by other Federal agencies
denominated in local currencies to facilitate         and the general public. Amounts due from
accounting by the recipient organizations.            Federal agencies are considered fully

                                                   39 

collectible. Accounts receivable from the             expenses when the related goods and services
public      include     reimbursements    from        are received. Grant advances are discussed
employees. An allowance for uncollectible             under Section "F. Grant Accounting."
accounts receivable from the public is
established when. based upon a review of              J. Liabilities
outstanding accounts and the failure of all
collection efforts, management determines that        Liabilities represent the amount of monies or
collection is unlikely to occur considering the       other resources likely to be paid by the
debtor's ability to pay.                              USADF as a result of transactions or events
                                                      that have already occurred.
H. Property, Equipment, and Software
                                                      USADF reports its liabilities under two
Property, equipment and software represent            categories, Intragovernmental and With the
furniture, fixtures, equipment, and information       Public. Intragovernmental liabilities represent
technology hardware and software which are            funds owed to another government agency.
recorded at original acquisition cost and are         Liabilities With the Public represents funds
depreciated or amortized using the straight-line      owed to any entity or person that is not a
method over their estimated useful lives.             federal agency, including private sector firms
Major alterations and renovations are                 and federal employees.        Each of these
capitalized, while maintenance and repair costs       categories may include liabilities that are
are expensed as incurred              USADFs          covered by budgetary resources and liabilities
capitalization threshold is $20,000 for               not covered by budgetary resources.
individual purchases. Vehicle purchases will
automatically be capitalized regardless of the        Liabilities covered by budgetary resources are
cost.     Applicable standard governmental            liabilities funded by a current appropriation or
guidelines regulate the disposal and                  other funding source.        These consist of
convertibility of agency property, equipment,         accounts payable and accrued payroll and
and software. The useful life classifications         benefits. Accounts payable represent amounts
for capitalized assets ~e as follows:                 owed to another entity for goods ordered and
                                                      received and for services rendered except for
Description                 Useful Life (years)       employees. Accrued payroll and benefits
                                                      represent payroll costs earned by employees
                                                      during the fiscal year which are not paid until
Leasehold hnprovements                5               the next fiscal year.
Office Furniture                      5
Computer Equipment                    5"              Liabilities not covered by budgetary resources
                                                      are liabilities that are not funded by any
Office Equipment                      5
                                                      cunent appropriation or other funding source.
Software                              5               These liabilities consist of accmed annual
                                                      leave, FECA, and unemployment insurance.
I. Advances and Prepaid Charges
                                                      K. Annual, Sick, and Other Leave
Advance payments are generally prohibited by
law. There are exceptions, such as some               Annual leave is accrued as it is earned, and the
reimbursable agreements, subscriptions and            accmal is reduced as leave is taken. The
payments to contractors and employees.                balance in the accmed leave account is
Advances may be given to USADF employees              adjusted to reflect current pay rates. Liabilities
for official travel. Payments made in advance         associated with other types of vested leave
of the receipt of goods and services are              including compensatory, restored leave, and
recorded as advances or prepaid charges at the        sick leave in certain circumstances, are accrued
time of prepayment and recognized as                  at year-end, based on latest pay rates and

                                                   40 

unused hours of leave. Funding will be                  Prior to December 31, 1983, all employees
obtained from future financing sources to the           were covered under the CSRS program. From
extent that current or prior year appropriations        January 1, 1984 through December 31, 1986,
are not available to fund annual and other              employees had the option of remaining under
types of vested leave earned but not taken.             CSRS or joining FERS and Social Security.
Nonvested leave is expensed when used. Any              Employees hired as of January 1, 1987 are
liability for sick leave that is accrued but not        automatically covered by the FERS program.
taken by a Civil Service Retirement System              Both CSRS and FERS employees may
(CSRS)-covered employee is transferred to the           participate in the federal Thrift Savings Plan
Office of Personnel Management (OPM) upon               (TSP). FERS employees receive an automatic
the retirement of that individual. Credit is            agency contribution equal to one percent of
given for sick leave balances in the                    pay and USADF matches any employee
computation of annuities upon the retirement            contribution up to an additional four percent of
of Federal Employees Retirement System                  pay. For FERS participants, USADF also
(FERS)-covered employees effective at 50%               contributes the employer's matching share of
beginning FY2010 and 100010 in 2014.                    Social Security.

L. Accrued and Actuada! Workel"S'                       FERS employees and certain CSRS
Compensation                                            reinstatement employees are eligible to
                                                        participate in the Social Security program after
The Federal Employees' Compensation Act                 retirement. In these instances, USADF remits
(FECA) administered by the U.S. Department              the employer's share of the required
of Labor (DOL) addresses all claims brought             contribution.
by the USADF employees for on-the-job
injuries. The DOL bills each agency annually            USADF recognizes the imputed cost of
as its claims are paid, but payment of these            pension and other retirement benefits during
bills is deferred for two years to allow for            the employees' active years of service. OPM
funding through the budget process. Similarly,          actuaries determine pension cost factors by
employees that the USADF terminates without             calculating the value of pension benefits
cause      may       receive     unemployment           expected to be paid in the future and
compensation        benefits      under      the        communicate these factors to the USADF for
unemployment insurance program also                     current period expense reporting. OPM also
administered by the DOL, which bills each               provides information regarding the full cost of
agency quarterly for paid claims. Future                health and life insurance benefits.        The
appropriations will be used for the                     USADF recognized the offsettiiJ.g revenue as
reimbursement to DOL. The liability consists            imputed financing sources to the extent these
of (1) the net present value of estimated future        expenses will be paid by OPM.
payments calculated by the DOL, and (2) the
unreimbursed cost paid by DOL for                       The USADF does not report on its financial
compensation to recipients Imder the FECA.              statements information pertaining to the
                                                        retirement plans covering its employees.
M. Retirement Plans                                     Reporting amounts such as plan assets,
                                                        accumulated plan benefits, and related
USADF employees participate in either the               unfunded liabilities, if any, is the responsibility
CSRS or the FERS. The employees who                     of the OPM, as the administrator.
participate in CSRS are beneficiaries of
USADF's matching contribution, equal to
seven percent of pay, distributed to their
annuity account in the Civil Service
Retirement and Disability Fund.


                                                   41
N. Other Post-Employment Benefits                 P. Imputed Costs/Financing Sources

USADF employees eligible to participate in        Federal Government entities often receive
the Federal Employees' Health Benefits Plan       goods and services from other Federal
(FEHBP) and the Federal Employees' Group          Government entities without reimbursing the
Life Insurance Program (FEGLIP) may               providing entity for all the related costs. In
continue to participate in these programs after   addition, Federal Government entities also
their retirement. The OPM has provided the        incur costs that are paid in total or in part by
USADF with certain cost factors that estimate     other entities. An imputed financing source is
the true cost of providing the post-retirement    recognized by the receiving entity for costs
benefit to current employees. The USADF           that are paid by other entities. The USADF
recognizes a current cost for these and Other     recognized imputed costs and financing
Retirement Benefits (ORB) at the time the         sources in fiscal years 2013 and 2012 to the
employee's services are rendered. The ORB         extent directed by accounting standards.
expense is financed by OPM, and offset by the
USADF through the recognition of an imputed       Q. Reclassification
financing source.
                                                  Certain fiscal year 2012 balances may have
O. Use of Estimates                               been reclassified, retitled, or combined with
                                                  other financial statement line items for
The preparation of the accompanying financial     consistency with the current year presentation.
statements in accordance with generally
accepted accounting principles requires
management to make certain estimates and
assumptions that affect the reported amounts
of assets, liabilities, revenues. and expenses,
and in the note disclosures. Actual results
could differ from those estimates.

NOTE 2. FUND BALANCE WITH TREASURY 


Fund balance with Treasury account balances as of September 30, 2013 and 2012 were as
follows:
                                                            2013                     2012
Fund Balance,s:
Trust Funds                                            $        36,154           $        36,154
Appropriated FlUlds                                         33,840,458                32,523,243
Total                                                  $    33,876,612           $    32,559,3971

Status of Fund Balance with TreasUl)':
UnobJigated Balance
   Available                                           $     3,143,307          $     2,161,564
   Exempt from Apportionment                                    36,154                   36.154
   Unavailable                                               2,842,243                2,267,020
Ob!2ted Balance Not Yet Disbw-sed                           27,854,908               28,094,659
Total                                                  $    33,876,612          $    32,559,39




                                              42 

No discrepancies exist between the Fund Balance reflected on the Balance Sheet and the balances
in the Treasury accounts.

The available unobligated fund balances represent the current-period amount available for
obligation or commitment. At the start of the next fiscal year, this amount will become part of the
unavailable balance as described in the following paragraph.

The unavailable unobligated fund balances represent the amount of appropriations for which the
period of availability for obligation has expired. These balances are available for upward
adjustments of obligations incurred only during the period for which the appropriation was
available for obligation or for paying claims attributable to the appropriations.

The obligated balance not yet disbursed includes accounts payable, accrued expenses, and
undelivered orders that have reduced unexpended appropriations but have not yet decreased the
fund balance on hand.


NOTE 3. CASH AND OTHER MONETARY ASSETS

USADF's funds held outside the Treasury consist of local currency donations made by African
governments and certain private sector entities for program purposes in each respective country.

Cash and other monetary assets balances as of September 30, 2013 and 2012, totaled $4,135,650
and $4,934,940, respectively. The compara~ive balances are summarized below:

                                                         2013                         2012
EcoBank Mali                                  $              678,117             $         823,627
Stanbic Bank of Uganda                                     1,008,406                       778,956
Banque CommerciaJe do Rwanda                                 147,102                       312,180
Bank Gaborone of Botswana                                    215,839                       498,661
EcoBank Benin                                                868,707                       941,854
EcoBank Senegal                                              102,068                       161,967
Banco Comercial do Atlantico, Cape Verde                     196.401                       269,401
EcoBank Guinea                                               100,867                       229,102
Zenith Bank Nigeria-Kaduna                                   102,357                       135,447
Zenith Bank Nigeria-Kano                                     160,589                       135,447
CitIDank Nigeria-Ahuja                                        30,895                        31 ,872
National Bank of Malawi                                      507,083                       566,743
Standard Chartered, Ghana                                      2,203                         2,582
First National Bank Swaziland                                 15,580                        18,754
Standard Chartered Ba     Zambia                                -564   *                    28,347
Total Funds Held Outside Treasury             $            4,135,650              $      4,934,940


* The disbursements for September are included in the above balances, however, due to -the one
month delay in receiving the bank statements, the Foreign Currency Adjustment for the
September period is not included. If the September Foreign Currency Adjustment had been
included, the Zambia balance would reflect positive.




                                                  43 

NOTE 4. ACCOUNTSRECEfVABLE

Accounts receivable balances as of September 30, 2013 and 2012, were as follows:

                                                              2013                       2012
With the Public
 Accounts Receivable                                     $       684,426          $           513,217
 Allowance                                                      (667,464)                    (112,364)
ITotal Public Accounts Receivable                        $        16,962          $          400,853
ITotal Accounts Receivable                               $        16,962          $          400,853

The accounts receivable is made up of a small amount of employee receivables and also includes
terminated grants. Historical experience has indicated that a portion of the receivables will not be
collectible.

Accounts receivable from the public, shown net of allowances for uncollectible amounts, as of
September 30,2013 and 2012, were $16,962 and $400,853, respectively.


NOTE 5. PROPERTY, EQUIPMENT, AND SOFTWARE 


Schedule of Property, Equipment, and Software as of September 30, 2013: 


                                                          A('('umulatC'd
                                   An)lli ... ition       Amol"tizationl              Nt,t Book
 l\Iajol" Cia......                   Cost                Dq)l"C'ciation                Valul'
 Furniture & Equipment            $    1,655,369          $     1,311,625         $          343,744
~Total                            $    1,655,369          $     1,311 ,625        $          343,744


Schedule of Property, Equipment, and Software as of September 30, 2012:

                                                          AccumulatC'd
                                   Al"qubition            Amortizationl               ~('(Book
Majol" Class                          Co,t                Dl'pn'('iation                YahH'
Furniture & Equipment             $    1,642,322          $    1,280,992          $       361,330
Total                             $    1,642,322          $     1,280,992         $          361,330




                                                44 

NOTE 6. OTHER ASSETS

Other assets account balances as of September 30, 2013 and 2012, were as follows:

                                                                  2013                   2012
With the Public
 Grant Advances                                           $       2,339,024         $     3,141,045
 Travel Advances                                                      7,262                  12,719
Total Public Other Assets                                 $       2,346,286         $     3.153,764



NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The liabilities for USADF as of September 30, 2013 and 2012 include liabilities not covered by
budgetary resources. Congressional action is needed before budgetary resources can be provided
Although future appropriations to fund these liabilities are likely and anticipated, it is not certain
that appropriations will be enacted to fund these liabilities.

                                                                    2013                 2012
Intragovernmental- FECA                              $                  2,344       $         2,344
Unftmded Leave                                                           298,466            316,230
Total Liabilities Not Covered by Budgetary Resources $                   300,810    $       318,574 

Total Liabilities Covered by Budgetary Resources                         749,460            686,644 

iTotal Liabilities                                            $      1,050.,270     $     1,005,218

FECA liability represents the unfunded liability for actual workers compensation claims paid on
USADF's behalf and payable to the DOL.

Unfunded leave represents a liability for earned leave and is reduced when leave is taken. The
balance in the accrued annual leave account is reviewed quarterly and adjusted as needed to
accurately reflect the liability at current pay rates and leave balances. Accrued annual leave is
paid from future funding sources and, accordingly, is reflected as a liability not covered by
budgetary resources. Sick and other leave is expensed as taken.




                                                 45 

NOTE 8. OTHER LIABILITIES

Other liabilities account balances as of September 30, 2013 were as follows:

                                                 Cnnent              :"011 CnlTeut            Total
Intragovernmental
  FECA Liability                             $          2,344    $                        $           2,344
  Payroll Taxes Payable                                45,772                                     45,772
 Custodial Liabilit                                                           387,574           387,574
~Total Intragovernmental Other Liabilities   S         48,116    S            387,574     S     435,690


With the Public
  Payroll Taxes Payable                      $          7311     $                        $           7311
  Accrued Funded Payroll and Leave                    221 ,628                                  221 ,628
  Unfunded Leave                                      298,466                                   298,466
  Other Liabilities                                    15,912                                     15,912
Total Public Other Liabilities               $        543,31 7   $                        S     543,317


Other liabilities accOlmt balances as of September 30, 2012 were,as follows:

                                                 CUlTl'lIt           ;'\011 CllIl'('lIt       rotal
Intragovernmental
  FECA Liability                             $          2,344    $                        $           2,344
  Payroll Taxes Payable                                42,473                                     42 ,473
 Custodial Liability                                                          364,317           364,317
Total Intrar>vernmental Other Liabilities    $         44,817    $            364,3 17    S     409,134


With the Public
  Payroll Taxes Payable                      $          5,262    S                        $           5,26 2
  Accrued Funded Payroll and Leave                    229,644                                   229,644
  Unfunded Leave                                      316,230                                   316,230
Total Public Other Liabilities               S       551 ,136    S                        S     551, 136




                                                      46 

     NOTE 9. LEASES

     Operating Leases

     USADF occupies office space in Washington, DC under a lease agreement that is accounted for
     as an operating lease. The lease term is for a period of ten years and commenced on May 1, 2008
     and expires on April 30, 2018. Lease payments are increased annually based on the adjustments
     for operating cost and real estate tax escalations. Below is a schedule of future payments for the
     term of the lease.

     Fi~cal   Y(,aJ'                                                                     Bllilding
     2014                                                                            $          815,142
     2015                                                                                       835,506
     2016                                                                                       856,433
     2017                                                                                       877,831
     Thereafter                                                                                 519.443
     :Total Future Payments                                                          $        3,904,355


     The operating lease amount does not include estimated payments for leases with annual renewal
     options. USADF enters into year-to-year leases in the countries with established COlmtry
     Representative Offices.


     NOTE 10. NET COST OF OPERATIONS 


     Costs by major budget object classification as of September 30, 2013 and 2012 are as follows: 


                                                                   2013                   2012
     Personnelcoucrpensation                                  $     4,094,760        $      3,989,675
     Personnel benefIts                                             1,439,408               1,357,299
     BenefIts to fOImer employees                                                              20,168
     Travel and transportation of persons                             425,444                 625,906
,
   Rent, cOlIllmmications, and utilities, etc.                      941,187                 978,404
     Printing                                                          16,126                  15,512
     Other services                                                 2,891,975               2,792,894
     Supplies and materia~                                            124,941                 135,685
     Equipment                                                        136,173                  82,430
     Land & structures                                                 13,122                  15,106
     Grants, subsidies & contributions                             20,606,151              23,053,385
     Total Net Cost of Operations                             $    30,689,287       $      33,066,464




                                                    47 

NOTE 11. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intragovernmental costs and revenue represent exchange transactions between USADF and other
federal government entities, and are in contrast to those with non-federal entities (the public).
Such costs and revenue are summarized as follows:

                                                              2013                   2012
Foreign Grant Program
  Public Costs                                        $       21,538,941        $   23,846,812
   Total Program Costs                                        21,538,941            23,846,812
     Public Earned Revenue                                       ~10,225~
   Net Program Costs                                          21,528,716            23,846,812

 Costs Not Ass~ed to Pro"ams                                   9,160,571             9,219,652
!Total Net Cost                                       $       30..689,287      $    33,066A64


NOTE 12. IMPUTED FINANCING SOURCES

USADF recognizes as imputed financing the amoWlt of accrued pension and post-retirement
benefit expenses for current employees. The assets and liabilities associated with such benefits
are the responsibility of the administering agency, OPM. For the periods ended September 30,
2013 and 2012 respectively, imputed financing was as follows:

                                                               2013                 2012
Office of Personnel Management                            $       529,126       $      533,593
Totallnq>uted Financing Sources                           $       529,126       $      5J3,593)



NOTE 13. BUDGETARY RESOURCE COMPARISONS TO THE BUDGET OF THE
UNITED STATES GOVERNMENT

The President's Budget that will include fiscal year 2013 actual budgetary execution infonnation
has not yet been published. The President's Budget is scheduled for publication in February 2014
and can be fOWld at the OMB Web site: http://www.whitehouse.gov/ombl. The 2014 Budget of
the United States Government, with the "Actual" column completed for 2012, has been
reconciled to the Statement of Budgetary Resources and there were no material differences.




                                              48 

NOTE 14. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

Obligations inclllTed and reported in the Statement of Budgetary Resources in 2013 consisted of
the following:

                                                            2013                         2012
Direct Obligations, Category A                          $    8,949,787               $    9,089,678
Direct Obligations, Category B                              18,559,556                   27,162,527
Direct Ob~tions, Category C                                  1,390,557                    3,273,619
Total Obli~tions IncWTed                                $   28,899,900               $   39,525,824

Category A apportionments distribute budgetary resources by fiscal quarters. 


Category B apportionments typically distribute budgetary resources by activities, projects, objects 

or a combination of these categories. 


Category C apportionments lllay be used to apportion funds into funlIe fiscal years. 



NOTE 15. UNDELIVERED ORDERS AT THE END OF THE PERIOD

For the periods ended September 30, 2013 and 2012, undelivered orders amounted to the
following:

                                                             2013                        2012
Undelivered Orders                                      $      32,452,369        $        34,577,943
Total Undelivered Orders                                       32,452,369        $        34,577,9431



NOTE 16. CUSTODIAL ACTIVITY

The USADF is an administrative agency collecting for the General Fund. In the ClllTent fiscal
year, collections totaled $9,329 and accrual adjustments were ($358,844). The accrual
adjustments represent an allowance recorded in FY2013 against the accounts receivable balance,
the majority of accounts receivable being recorded in a previous fiscal year. The accounts
receivable due to the USADF is associated with cancelled funds and, if collected, will be renuned
to Treasury.




                                                49 

NOTE 17. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

USADF has reconciled its budgetary obligations and non-hudgetary resources available to its net
cost of operations.

                                                                               2013              1012
Resources U,ed to FmaDCe ActhiCies:
Budgetmy Resowces Obligated
  Obligations Incuued                                                      S   28.899.900    S   39,525,824
  Spendin~ Autho!!!I FromOffsettin~ Collections and Recoveries                 ~1,272.2&2)       Q,691 .~
  Obligations Net ofOffsetting Collections and Recoveries                      27,627,618        35.834.152
Other Resowces
 !!!Euted Financins FromCosts Absotbed !!x Others                                 529,126           533,593
Total Resowces Used to Fmance Actn-"ities                                      28,156.744        36,367,745

Resources U,ed to FiDanc:e Items Not Part of ~ Net Cost of OperaCions:
  Cllange In BudgetaJ:y Resowces Obligated For Goods,
    Services and Benefits Ordered But Not Yet Provided                          2,125,574        (3.126,479)
  Resources That Fund eq,enses Recogni2ed In Prior Periods                        (17,764)           (9,858)
  Resowces That Finance the AC9!!isition ofAssets                                ~128181~          Q97.95~
  Total Resources Used to Finance Items Not Part ofNet Cost ofQeerations        1,9781998        P.534,.292)
Total Resowces Used to Finance the Net Cost ofOperations                       30,135,742        32,833,453

Components of~ Net Cos t of Operations That WiD Not Require or
Generate Resources in ~ Current Period:
Co:o:ponents Requiring or Generating Resources in Future Periods
  Inaease In Annual Leave liab!!!!I                                                                 31,736
  Total Co:o:ponents ofNet Cost ofOperations That Will Require or
    Generate Resowces In Future Periods                                                             31,736
Co:o:ponents Not Requiring or Generating Resow:t:eS
  Depreciation and Amorti2ation                                                  146.398           236,943
  Revaluation ofAssets or liabilities                                            (10.225)
  Other                                                                          4171372            ~35.668)
  Total Co:o:ponents ofNet Cost ofOperations That Will Not Require or
    Generate Resowces                                                            553,545           201,215
Total Co:o:ponents ofNet Cost ofOperations That Will Not Require or
 Generate Resources In The Cturent Period                                         553,545           233,011
NetCostof~tions                                                            $   30,689,287    $   33.066.464



NOTE 18. CONTINGENT LIABILITIES

USADF records commitments and contingent liabilities for legal cases in which payment has
been deemed probable and for which the amount of potential liability has been estimated. There
were no contingent liabilities as of September 30, 2013. According to the USADF's legal
counsel, the likelihood of unfavorable outcomes for any legal actions and claims is remote. In the
opinion of the USADF's management, the ultimate resolution of any proceedings, actions, and
claims will not materially affect the financial position or results of operations of the USADF.




                                                       50 

           SECTION IV 


OTHER ACCOMPANYING INFORMATION 

TIllS PAGE INTENTIONALLY LEFI BLANK
                              u.s. AFRICAN DEVELOPMENT FOUNDATION 

                                SCHEDULE OF SPENDING 

             FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2013 AND 2012 (In DoUns) 


I                                                                                                    I
    -
                                                                      2013        -
                                                                                          2012       I
    What Money is AvaUable to Spend?
    Total Resources                                             $ 36,444,192          $ 45,273,655
    Less Amount Not Agreed to be Spent                            (4,702,049)          (3,480,811)
    Less Amount Not AvaiIable to be Spent                         (2,842,243)          (2,267,020)
    Total Amounts Aareed to be Spent                            $ 28,899.900          $ 39,525 824

    How was the Money Spent?
    Personnel Compensation                                       $    4,125,565       $ 3,896,153
    Personnel Benefits                                                  906,709            822,665
    Benefits for Former Persolmel                                             -             30,026
    Travel and transportation of persons                               373,942             633,485
    Transportation of things                                                  -              1,733
    Rent, Communications, and utilities                                 940,383            978,208
    Printing and reproduction                                            16,126             15,512
    Other contractual services                                        2,962,264          2,808,376
    Supplies and materials                                              114,488            126,356
    Equipment                                                            77,220            194,758
    Land and structw"es                                                  13,122             15,106
    Grants, subsidies and contributions                           19.418,179            22,693,990
    Total Spending                                                28,947,998            32216.368
    Amounts Remaining to be Spent                                   (48,098)             7,309,456
    Total Amounts Aareed to be Spent                            $ 28.899.900          $ 39,525,824

    Who did the Money go to?
    Federal                                                     $  2,318,160          $ 2,044,293
    Non-Federal                                                   26581.740             37481 531
    Total Amounts Aareed to be Spent                            $ 28,899,900          $ 39,525,824




                                               51 

